<html>
<title> - [H.A.S.C. No. 112-150] NONPROLIFERATION AND DISARMAMENT: WHAT'S THE CONNECTION AND WHAT DOES THAT MEAN FOR U.S. SECURITY AND OBAMA ADMINISTRATION POLICY?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 112-150] 
    NONPROLIFERATION AND DISARMAMENT: WHAT'S THE CONNECTION AND WHAT 
   DOES THAT MEAN FOR U.S. SECURITY AND OBAMA ADMINISTRATION POLICY?

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             AUGUST 1, 2012

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
75-672                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e6819689a6859395928e838a96c885898bc8">[email&#160;protected]</a>  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     BETTY SUTTON, Ohio
SCOTT RIGELL, Virginia               RON BARBER, Arizona
AUSTIN SCOTT, Georgia
                Tim Morrison, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                      Eric Smith, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, August 1, 2012, Nonproliferation and Disarmament: 
  What's the Connection and What Does That Mean for U.S. Security 
  and Obama Administration Policy?...............................     1

Appendix:

Wednesday, August 1, 2012........................................    29
                              ----------                              

                       WEDNESDAY, AUGUST 1, 2012
 NONPROLIFERATION AND DISARMAMENT: WHAT'S THE CONNECTION AND WHAT DOES 
      THAT MEAN FOR U.S. SECURITY AND OBAMA ADMINISTRATION POLICY?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Graham, Ambassador Thomas, Former Special Representative to the 
  President on Arms Control, Nonproliferation and Disarmament 
  (Clinton Administration).......................................     5
Schake, Dr. Kori, Research Fellow, Hoover Institution............     4
Rademaker, Hon. Stephen G., Former Assistant Secretary of State..     2

                                APPENDIX

Prepared Statements:

    Graham, Ambassador Thomas....................................    69
    Rademaker, Hon. Stephen G....................................    42
    Sanchez, Hon. Loretta, a Representative from California, 
      Ranking Member, Subcommittee on Strategic Forces...........    39
    Schake, Dr. Kori.............................................    55
    Turner, Hon. Michael.........................................    33

Documents Submitted for the Record:

    ``A Call for Global Nuclear Disarmament,'' article by Scott 
      D. Sagan, Nature magazine, July 5, 2012....................    91
    Letter to Hon. Thomas P. D'Agostino from Mr. McKeon and Mr. 
      Turner, July 26, 2012......................................   107
    Seven slides submitted by Mr. Turner.........................   109
    ``Shared Responsibilities for Nuclear Disarmament,'' essay by 
      Scott D. Sagan, excerpted from ``Shared Responsibilities 
      for Nuclear Disarmament: A Global Debate,'' American 
      Academy of Arts & Sciences, 2010...........................    94
    Testimony of Matthew Kroenig, Assistant Professor of 
      Government, Georgetown University; Stanton Nuclear Security 
      Fellow, Council on Foreign Relations.......................   148
    Testimony of Scott D. Sagan, Caroline S.G. Munro Professor of 
      Political Science, Senior Fellow at the Center for 
      International Security and Cooperation, Stanford University   116

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................   207
    Ms. Sanchez..................................................   205
    Mr. Turner...................................................   191


 NONPROLIFERATION AND DISARMAMENT: WHAT'S THE CONNECTION AND WHAT DOES 
      THAT MEAN FOR U.S. SECURITY AND OBAMA ADMINISTRATION POLICY?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                         Washington, DC, Wednesday, August 1, 2012.
    The subcommittee met, pursuant to call, at 3:11 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. I call to order the hearing of the Strategic 
Forces Subcommittee.
    With unanimous consent, we are going to dispense with our 
opening statements, having our written opening statements put 
into the record.
    I am going to ask also unanimous consent that two articles 
of Scott Sagan and one letter by Chairman McKeon and myself be 
placed into the record concerning modernization and U.S. 
deterrent risk.
    [The information referred to can be found in the Appendix 
on pages 91, 94, and 107.]
    Mr. Turner. I wanted to frame the issue before I get to our 
speakers.
    We, unfortunately, are under the time constraints that 
votes are likely to occur in the middle of our hearing. So we 
can get the most opportunity to hear you, instead of us, we are 
going to dispense with the opening statements, other than to 
acknowledge that the title of our hearing today is 
Nonproliferation and Disarmament: What's the Connection and 
What Does That Mean for U.S. Security and Obama Administration 
Policy, the point being, obviously, that nonproliferation is 
others having nuclear weapons and disarmament is us giving up 
the weapons that we have. The point of the hearing is trying to 
delineate the differences there and the differences in the 
goals as we try to strengthen our deterrent to ensure that we 
are not at risk.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 33.]
    Mr. Turner. With that, I am going to turn to our panel 
members and ask that they take 5 minutes in which to deliver 
their opening statements. Their written statements will be 
admitted into the record.
    We have The Honorable Stephen Rademaker, who is the former 
Assistant Secretary of State; Dr. Schake--is that correct--who 
is the Research Fellow at Hoover Institution, from Stanford 
University; and Ambassador Thomas Graham, who is the former 
Special Representative to the President on Arms Control, 
Nonproliferation and Disarmament for the Clinton 
Administration.
    With that, I will go to Mr. Rademaker.

   STATEMENT OF HON. STEPHEN G. RADEMAKER, FORMER ASSISTANT 
                       SECRETARY OF STATE

    Mr. Rademaker. Thank you very much, Mr. Chairman. It is a 
real pleasure for me to be here today, and I welcome the 
opportunity to speak to the subject of today's hearing, which 
is the connection between nuclear disarmament and nuclear 
nonproliferation.
    I think there is near unanimity--well, first, let me say I 
have prepared a written statement which I am not going to read 
to you. I am going to summarize some of the key points in the 
next few minutes.
    I think there is near unanimity in Washington that nuclear 
proliferation is one of the gravest threats facing our country. 
There is a theory that is put forward by active proponents of 
nuclear disarmament that there is a connection between nuclear 
nonproliferation and nuclear disarmament, and essentially what 
is suggested is that if we move--if our Nation moves decisively 
in the direction of nuclear disarmament that that will 
translate somehow into greater success or at least additional 
progress in dealing with the problem of nuclear proliferation.
    I wish that theory were true. If it were true, I would 
probably be a passionate supporter of immediate movement toward 
nuclear disarmament, because I think it would then help us 
solve what truly is one of the critical risks facing our 
country.
    As explained in my testimony, however, I am skeptical that 
there is such a connection; and I make three principal points 
in my testimony which I will just touch on here.
    The first is that I believe those who advocate the 
existence of such a linkage completely disregard the importance 
of U.S. nuclear weapons as a tool of nuclear disarmament[sic]. 
For the entire duration of the nuclear era for the last 65 
years, the reason there hasn't been more nuclear proliferation, 
in my view, in large measure has to do with the reliability of 
the U.S. nuclear deterrent in the eyes of our allies and others 
who worry about the existence of nuclear weapons in the hands 
of some other countries, principally Russia and China. And I 
point out that we shouldn't let today's nuclear proliferation 
problems obscure the more fundamental proliferation problem 
that we faced over the nuclear era.
    Today, the problem comes from countries like Iran and North 
Korea, which are relatively poor, relatively undeveloped. But 
that has not been the traditional nuclear proliferation risk. 
The traditional risk has come from wealthy, advanced countries 
that wonder why they didn't have nuclear weapons. And our 
policy throughout the Cold War--and I would argue into today--
is to reassure those kinds of countries that they don't need 
their own nuclear weapons because they can rely on America's 
nuclear weapons to defend them.
    So our arsenal is actually, I would argue, the most 
powerful tool we have of nuclear nonproliferation. And so for 
those who advocate either abolishing that tool or moving 
decisively in the direction of abolishing it, they need to 
explain how we will deal with this problem that has existed 
throughout the Cold War era and since the Cold War in the 
absence of U.S. nuclear weapons.
    The second major point I make is that the so-called 
obligation of the United States to engage in nuclear 
disarmament derives from the Nuclear Nonproliferation Treaty, 
Article VI of the NPT. I often like to go back and read that 
article to audiences because there is a lot of lore about what 
the NPT requires, much of it exaggerated, in my view.
    When one goes back and reads the actual legal obligations 
set forth in Article VI, it quickly emerges that the NPT 
doesn't really require all of the things that we are told that 
it requires. Article VI is only one sentence long. I won't read 
it all, but I will parse it. Because I think if you parse the 
language, what emerges is the real legal obligation that we 
have under Article VI of the NPT.
    When you parse the one sentence of Article VI of the NPT, 
what emerges is a legal requirement on the United States and 
the other nuclear weapon states to, quote, ``Pursue 
negotiations in good faith on effective measures relating to 
nuclear disarmament.''
    And that is the obligation. And I would contend that we 
have more than complied with that obligation because we have 
had arms control agreement after arms control agreement 
negotiated between us and the Soviet Union and, more recently, 
us and Russia; and that fulfills the obligation to negotiate in 
good faith on effective measures.
    Now, I go into some additional details about how under the 
language of the NPT the ultimate obligation to disarm, to get 
rid of nuclear weapons is actually tied to a separate 
obligation to bring into effect a treaty on general and 
complete disarmament, which is something that is profoundly 
aspirational but not on the horizon. And, of course, proponents 
of nuclear disarmament would immediately change the subject at 
the mention of a treaty on general and complete disarmament 
because, of course, that is not something that we will see 
anytime soon.
    I think it is useful to recall a 1969 memo written by Dr. 
Spurgeon Keeny, who was then a member of the NSC staff, and he 
wrote a memo to Secretary--actually, then National Security 
Advisor Henry Kissinger describing article by article the 
requirements of NPT.
    With respect to Article VI, which is the article that is 
pointed to as the requirement that we disarm, he said that, 
quote, ``It is an essentially hortatory statement and presents 
no problems.''
    I think there are very few people who would even recognize 
that statement today, but that was the understanding at the 
time----
    Mr. Turner. If you can summarize. I am certain you will 
have----
    Mr. Rademaker. My third point--and I am happy to go through 
it in greater detail in response to questions--but the notion 
that by giving up our nuclear weapons we are going to inspire 
others to do more--to join us in doing more about the risk of 
nuclear proliferation in countries like Iran and North Korea 
and elsewhere, there is simply no evidence that this works. We 
have had, you know, 3\1/2\ years of the Obama administration, 
and I would argue there is no evidence during the Obama 
administration that this theory has worked. In fact, I can 
point to plenty of instances where we are getting less 
cooperation than we did in the past.
    [The prepared statement of Mr. Rademaker can be found in 
the Appendix on page 42.]
    Mr. Turner. Thank you.
    Dr. Schake.

     STATEMENT OF DR. KORI SCHAKE, RESEARCH FELLOW, HOOVER 
                          INSTITUTION

    Dr. Schake. I would make four quick points.
    The first is I agree with Steve's assessment that there is 
actually not evidence that reductions in the American arsenal 
precipitate reductions in other countries' arsenals. And that 
if you go case by case over countries that have crossed the 
nuclear threshold or considered to have active nuclear programs 
and that walked back from them, oddly enough, actually the main 
inhibitor to crossing the nuclear threshold is reliable 
security guarantees from the United States. And if you look at 
the 30-some cases of countries that have the scientific and the 
industrial and the engineering ability to be able to have 
active nuclear programs of their own, most of them are actually 
close American allies that have chosen not to.
    There are a couple of interesting cases that fall outside 
that category--Sweden and South Africa, for example--in which 
there are other motivations that drove it. In the case of 
Sweden, a genuine belief that their security would be achieved 
more robustly without nuclear weapons because they believed 
that would actually make them a target in the time frame they 
were making their decision of Soviet forces. And in the case of 
South Africa, because of a pending regime change, that they did 
not want the arsenal to go into the hands of their successor 
regimes.
    What I mean by that is my second point, which is that, 
actually, motivations are not simplistic. They vary widely by 
country. It is not simply the United States. It is not simply 
regional rivalries. It is not--it very often has to do with 
prestige, with factors that are unique to that country's 
history. So a sweeping generalization, a generalized conclusion 
that the size or structure of the United States arsenal is the 
determinant is actually not true.
    Third, I actually think if we reduce the American strategic 
nuclear forces to levels that are being considered by some in 
the current administration--that is, 300 deployed nuclear 
weapons ourselves--that we are actually getting dangerously 
close to that line that would precipitate threshold countries 
to want to cross it.
    Because, you know, China has--what--250 nuclear weapons, 
Pakistan 100 or so. You are getting close to the level at which 
other countries that might see a prestige value of having 
arsenals greater than the United States would, in fact, cross 
the threshold or increase the size of their arsenals; and I 
believe very strongly that that would diminish rather than 
increase American security.
    And my last point is just a caution against making major 
force-sizing or force-structuring decisions on the basis that 
we understand other countries' motivations well enough to be 
able to determine what they are doing. Even in the historical 
cases where you can do the forensics, this is actually art, not 
science, and there are lots of reasons to believe that we 
actually don't know. And so assessing other countries' 
motivations and making major force sizing and structuring 
decisions on that basis I think is a bad set of choices.
    [The prepared statement of Dr. Schake can be found in the 
Appendix on page 55.]
    Mr. Turner. Ambassador.

     STATEMENT OF AMBASSADOR THOMAS GRAHAM, FORMER SPECIAL 
       REPRESENTATIVE TO THE PRESIDENT ON ARMS CONTROL, 
   NONPROLIFERATION AND DISARMAMENT (CLINTON ADMINISTRATION)

    Ambassador Graham. Thank you, Mr. Chairman. Thank you for 
the opportunity to be here.
    Mr. Turner. I am not certain your mic is on.
    Ambassador Graham. Mr. Chairman, I want to thank you for 
the opportunity to testify here today; and I commend the 
subcommittee for conducting this hearing, because this really 
is an important subject. It has been debated for years, and it 
is important to have these debates in the Congress, because 
that is our national legislature where these debates should 
take place.
    First, let me comment on who are these people that are 
advocating zero nuclear weapons and the elimination of nuclear 
weapons.
    The first on the scene, the primary organization to do that 
was the organization put together at the Hoover Institution in 
California. This group was led by former U.S. Secretary of 
State George Shultz, former U.S. Secretary of State Henry 
Kissinger, former U.S. Secretary of Defense William Perry, and 
former Chairman of the U.S. Senate Armed Forces Committee Sam 
Nunn. They were the ones who really began in recent years to 
debate about the importance of eliminating nuclear weapons as a 
threat to U.S. security.
    They wrote several Wall Street Journal op-ed articles to 
advocate their position. In the first one they said, among 
other things, that unless urgent new actions are taken the U.S. 
will soon be compelled to enter a new nuclear era that will be 
more precarious, psychologically disorienting, and economically 
even more costly than was Cold War deterrence. They cite 
President Ronald Reagan and his comments on nuclear weapons and 
how strongly he believed that they should be eliminated, 
calling them totally irrational, totally inhumane, good for 
nothing but killing, possibly destructive of life on earth and 
civilization. And at the end of that article they close by 
saying, we endorse setting the goal of a world free of nuclear 
weapons and working energetically on the actions required to 
achieve that goal.
    That is what got the recent movement toward the elimination 
of weapons begun. President Obama simply picked that up and 
advocated it himself. And it is certainly the case that every 
American President has endorsed the goal in principle, but two 
have actually endorsed it happening, President Ronald Reagan 
and President Obama.
    With respect to whether there is a connection between 
disarmament and nonproliferation, I would argue, yes, there is 
very much a connection. It is true that Article VI of the 
Nonproliferation Treaty, our central security instrument, is 
vague, but you have to look at the background behind it.
    President John F. Kennedy greatly feared worldwide 
proliferation, calling it, in his view, the greatest possible 
danger and hazard. The nonproliferation treaties with the 
associated nuclear umbrella policies of the U.S. and the Soviet 
Union largely stopped that proliferation, but it was based on a 
strategic bargain.
    It was very clear during the negotiations in the late 1960s 
and also when the treaty was made permanent in 1995 that the 
rest of the world was not giving us nonproliferation for the 
world as a gift. It was a bargain. It was a basic bargain based 
on nonproliferation for most of the world, disarmament and 
peaceful cooperation by the five nuclear weapon states 
mentioned in the treaty--or permitted by the treaty. That is 
U.S., France, Russia, China, and the U.K.
    And first and foremost of these measures that those signing 
up to make themselves militarily permanently second class 
wanted as political balance for making this commitment was a 
comprehensive test ban. It is the only arms control agreement 
mentioned in the NPT, and it is of central importance to the 
bargain.
    Forty-some-odd years later this basic bargain still is 
largely unachieved. There have been some advances, but many 
things such as the test ban and stopping the production of 
fissile material have not been achieved.
    Well, first, before I close, let me just mention it is 
certainly true. I agree with what has been said about the 
threats of Iran and North Korea to the NPT, our central 
security document. Those threats must be dealt with. There is 
no question but that they are serious. There is no question in 
my mind that Iran is pursuing nuclear weapons, and of course 
North Korea has already achieved them. So they are very serious 
threats.
    The elimination of nuclear weapons is a policy for the long 
term. Everyone recognizes that. The four statesmen who I 
mentioned, they recognized that. For that to ever happen, it is 
important that the NPT hold together in the interim; and unless 
the basic bargain is better observed, in my mind, there is a 
substantial possibility that it will not.
    [The prepared statement of Ambassador Graham can be found 
in the Appendix on page 69.]
    Mr. Turner. If you could conclude.
    Okay, thank you.
    Just a few things to address.
    Again, I think we struggle with this issue of 
nonproliferation versus disarmament. And we struggle with it. 
And I started the framing of it, as you know, disarmament is us 
and nonproliferation is the other guys. And I think the concern 
is that as we all talk with the issue of wouldn't it be great 
to live in a world that has no nuclear weapons that there is no 
risk in making sure that we pursue nonproliferation.
    In fact, we lessen risk from nonproliferation. There is a 
risk in disarmament. And so having that balance as to how that 
goes is how the discussion from a policy perspective plays out.
    And in this issue that I think sometimes does get confused. 
I think there people who do believe that nonproliferation is 
our disarmament, as opposed to the other guys.
    That discussion as you were all raising of the issue of the 
NPT and this CTBT, the test ban treaty and the nonproliferation 
treaty, on the issue of its language with respect to 
disarmament. But I think I heard from all of you an 
understanding that I want to lay down as a foundation. I think 
everyone agrees that the NPT and the CTBT, nonproliferation and 
the test ban, that neither one of those documents--one having 
been ratified, the other not, the test ban treaty not having 
been ratified--neither one of those documents require 
disarmament in the United States.
    Mr. Rademaker, you said that in your opening statement, so 
I will take you as a yes on the NPT, but on the CTBT you would 
also agree?
    Mr. Rademaker. The CTBT, by its terms, certainly does not 
require.
    Mr. Turner. That is what I want to make certain.
    Dr. Schake, you also agree that neither the NPT nor the 
CTBT require disarmament of the United States.
    Dr. Schake. If Steve Rademaker says so, I believe it.
    Mr. Turner. Great.
    And, Ambassador, you also agree, also, that the language, 
the terms of those NPT having been ratified, CTBT not having 
been, but if it was ratified, neither would require disarmament 
in the United States.
    Ambassador Graham. Yes, I agree.
    Mr. Turner. Excellent.
    That then I think helps in the framing of this, also.
    And then I wanted to go on to an issue of in our goal of 
nonproliferation, meaning the other guys, the issue of Iran, 
North Korea is of grave concern. Now there are those that would 
say as the United States disarms--and Mr. Rademaker, you were 
addressing this issue in part--that there are those that would 
say that as we go down in our numbers that we will discourage 
others from going down. Those would say, well, if the United 
States would eliminate 75 percent or 90 percent of our nuclear 
weapons, then Iran wouldn't pursue it. And you said there is no 
historical basis for that.
    I would like to put up slide 7 to illustrate your lack of 
no historical perspective on that. The United States actually 
has reduced our nuclear weapons by 90 percent over the top 
period end, by 75 percent over the end of the Cold War, and 
those stars are time periods of others then pursuing nuclear 
weapons. And I believe that the last one of 2005-2008--2006 is 
North Korea, showing that they have been. And we all know that 
today it is our belief that as we continue to decline Iran 
continues to do--to seek nuclear weapons capability.
    [The slide referred to can be found in the Appendix on page 
115.]
    Mr. Turner. Now, Dr. Schake, I really appreciated your 
comments on that we don't really know why someone would--we 
can't ever tell someone else's motivations for seeking nuclear 
weapons. But we do know that there are bad people out there who 
have bad designs, who want to dominate other countries, invade 
other countries. We have seen that over even the most recent 
history. We have seen that there are countries that kill their 
own citizens. And certainly, there are those who would seek 
those nuclear weapons to continue or to strengthen their 
ability of those activities.
    Similarly, the issue of, you know, with Iran, our concern 
is that they support terrorist organizations and how would that 
assist them in support of the terrorist organizations and would 
we see them support them with nuclear weapons.
    One of the concerns that we had with the New START 
[Strategic Arms Reduction Treaty] was a desire by the 
administration in its U.S.-Russia cooperation policy to seek 
Russia cooperation to put pressure on Iran to dissuade them in 
their program.
    I think we have slide 4 and 5.
    [The slides referred to can be found in the Appendix 
beginning on page 112.]
    Mr. Turner. And these slides show that 4 days after the New 
START treaty entered into force, the Russian Foreign Minister 
Lavrov said at a press conference in London that, with the 
approval of resolution 1929 in June last year, practical 
possibilities to impose sanctions on those related even 
indirectly to the Iranian nuclear program have been exhausted, 
meaning they are done.
    Again, this is 4 days after the New START treaty was 
ratified. And I would like to tip the question then to you 
guys.
    Since we see that from the first slide that historically 
people are not dissuaded by our reducing our numbers and there 
is a risk in our reducing our numbers and since we see that 
Russia has not been persuaded even with New START to help us 
dissuade Iran, how do we stop others? How do we persuade others 
in nonproliferation to not pursue nuclear weapons?
    Ambassador.
    Ambassador Graham. Well, you have to negotiate with them. 
And certainly I would agree that unilateral U.S. reductions, 
other than its effect on our own defense policy, would have no 
effect on other countries. There is a difference between 
drawing down weapons because you think you have too many, which 
is what we have done, and negotiating agreements on the basis 
of a bargain with other countries. We have tried with North 
Korea. We almost succeeded, and then we backed away from the 
negotiations and allowed them to build 10 to 12 weapons.
    With Iran, we could sit here all day and argue about Iran 
policy. It is very complex. They have very complex reasons for 
wanting nuclear weapons, including prestige, fear of Pakistan, 
fear of the U.S., wanting to be a regional dominant player. So 
to negotiate with them, that is very difficult, and I am not 
certain that we can.
    I think we can probably--we have, anyway, in the past, 
negotiated with North Korea. Other countries we have 
successfully negotiated. Russia has reduced their weapons under 
agreements. We have reduced our weapons under agreements. We 
should engage China on this when we get them in their--we still 
have far more weapons and so does Russia than China does, but 
at some point we should try to engage them.
    Mr. Turner. Ambassador, I want to get to the other two for 
a moment. But, before I go on, you would agree that Iran's 
support of terrorist organizations makes it that much more of a 
concern as it seeks nuclear weapons?
    Ambassador Graham. I think that Iran is a direct----
    Mr. Turner. Your microphone is off, sir.
    Ambassador Graham. I am sorry. I keep turning it on and 
off.
    I think Iran is a direct threat to the survival of the NPT 
because of what an Iranian stockpile might mean. I think they 
certainly do support terrorist organizations.
    It is difficult for me to imagine, however, Iran developing 
nuclear weapons and handing them over to terrorist 
organizations and thereby not having control over them anymore, 
because they might be used against them. They have some 
experience with that.
    But I don't want to----
    Mr. Turner. I think there is a lot of people who could have 
mentioned that, and I know that is one of the concerns.
    Dr. Schake.
    Ambassador Graham. I don't want to minimize that.
    Dr. Schake. I agree Iran is the real problem.
    North Korea is a terrible danger crossing the nuclear 
threshold. They are predominantly a danger to themselves, first 
and foremost, to the South Koreans, to the Japanese.
    Iran is a threat to everybody, and if Iran is allowed to 
cross the nuclear threshold then validity of the NPT will be so 
badly ragged that I think you are just going to see a cascade 
of proliferation throughout the Middle East.
    And, Congressman Turner, I think you hit on the essential 
point, which is the nature of the regime really matters. We 
don't care if Sweden crosses the nuclear threshold, even though 
it would be a bad thing for the overall regime, because Sweden 
is not a threat to its own population. It is not a threat to 
its neighbors.
    Iran is a real worry because it is a danger to the Iranian 
people. It is a danger to American allies in the region. It is 
a danger to the United States and to our regions--to our allies 
around the world.
    I wish that we could find a way to turn a key in the lock 
and encourage the Iranians to do something different than they 
appear to have done over the course of the last 18 years. I 
don't see any evidence that we are making progress on that. 
They have had so many opportunities to take yes for an answer 
and get back into the good graces of the Europeans and the 
United States and come into the--like sort of mainstream of the 
international order. They keep saying no to that.
    And so it seems to me that that limits the tools we have to 
credibly deny them nuclear weapons if they should acquire them. 
Constrain their activity and punish it.
    Mr. Turner. Dr. Rademaker.
    Mr. Rademaker. Thank you.
    First point I would make about Iran and North Korea is, I 
believe--and I think Ambassador Graham, I just heard him 
agree--there is no relationship between U.S. policy toward 
nuclear disarmament and what they are going to do with their 
nuclear weapons programs.
    In other words, we could cut our nuclear arsenal in half. 
We could eliminate all of our nuclear weapons. It would not 
translate to diminished interest on their part in having 
nuclear weapons. So there is not that kind of correlation.
    In fact, I would argue with North Korea, if we gave up our 
nuclear weapons they would want nuclear weapons even more 
passionately than they do today because then they could be one 
of the most powerful countries in the world. That is the kind 
of psychology that exists in Pyongyang.
    On the question of what we do about Iran and North Korea, 
Ambassador Graham says we negotiate. Yes, of course, we 
negotiate; and every administration since these problems has 
emerged has tried to negotiate with these regimes. The problem 
is there has been a lack of interest on the other side in 
coming to a suitable solution to the problems, and so I think 
every administration has quickly come to the conclusion that 
negotiations alone are not a sufficient policy.
    Negotiations have to be coupled with meaningful pressures 
being brought to bear on the governments in North Korea and in 
Iran. And when President Obama speaks today about Iran, he 
doesn't talk about the strength of his diplomatic option. He 
talks about the strength of the economic sanctions that he has 
tried to bring to bear. And what has manifested, try as we 
might, we have not yet brought sufficient pressure to bear 
because the Iranian nuclear program continues unabated.
    Mr. Turner. If I might go to the Ambassador for 1 minute, 
and then I will go to Mr. Langevin, but if you could summarize 
in a moment.
    Ambassador Graham. I just want to make it clear I am not in 
favor of giving up nuclear weapons. I am in favor of 
negotiations.
    Secondly, Iran is really difficult. North Korea, we have 
negotiated successfully with them, and we did stop their 
program for a while, for about 8 years. But Iran is--I think we 
are going to have to----
    Mr. Turner. I am sorry. I am sorry. Could you back up? When 
did that occur?
    Ambassador Graham. 1994.
    Mr. Turner. In 1994, what occurred?
    Ambassador Graham. They renegotiated an agreed framework 
with them which stopped their plutonium program until 2002.
    Mr. Turner. Okay, I don't think everyone has the same 
confidence level that you do that that was effective.
    Ambassador Graham. Well, it did stop it. They didn't build 
any plutonium weapons during that period and they did 
afterwards.
    But Iran is much more difficult. It may be we will have to 
play for time, try to drag it out as long as we can. Time is on 
our side.
    Mr. Turner. Ambassador, thank you.
    Since you brought up the time period, Mr. Langevin, if I 
could, Mr. Rademaker, anybody want to respond to that time 
period of 1994 to 2002?
    Mr. Rademaker. Yes, I would be pleased to.
    I think what Ambassador Graham is referring to is the 
period of the so-called agreed framework which was negotiated 
during the Clinton administration between the United States and 
North Korea. He is correct that, pursuant to that agreement, 
North Korea did shut down their nuclear reactor and therefore 
they stopped generating spent nuclear fuel. They never 
surrendered their spent nuclear fuel, which was ultimately the 
source of plutonium, as they should have done under that 
agreement.
    But, more importantly, I think it mischaracterizes the 
situation to say that from 1994 through 2002 there was no 
progress in Iran's nuclear weapons--I am sorry, in North 
Korea's nuclear weapons program. Because what happened toward 
the end of that period was they began work on uranium 
enrichment. And the reason it collapsed in 2002 was Ambassador 
James Kelly, who was the Assistant Secretary of State for East 
Asia, traveled to North Korea and confronted the North Koreans 
with evidence that they were cheating on the agreed framework 
by standing up an enrichment capability. They admitted it to 
him and then later backtracked and said, no, they hadn't 
admitted it.
    Of course, now they admitted it again. So now it is clear 
that Kelly heard them correctly. They were in fact cheating, 
and the cheating began during the agreed framework. It is not 
something that began after 2002. The agreed framework collapsed 
due to North Korea cheating on it.
    Mr. Turner. Well, as I said, I think the dispute is over 
the effectiveness of it; and after Mr. Langevin we will 
probably return back to this. So don't forget what you were 
going to say, Ambassador, because I know this is important. It 
goes right to the heart of what we have done when we go to, 
well, what should we do.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our panel. I have enjoyed this discussion.
    Let me go to this. On July 25th, 2012, in joint testimony 
to the Senate Energy and Water Appropriations Subcommittee, 
General Cartwright and Ambassador Pickering noted that, and I 
quote, ``An arsenal shrunk to 900 total U.S. weapons matched by 
comparable Russian reductions would demonstrate a serious U.S. 
and Russian commitment to fulfilling their disarmament 
obligations in Article VI of the Nonproliferation Treaty, 
thereby help rally the anti-proliferation community to greater 
efforts to thwart would-be proliferators.''
    Furthermore, they added that, and I quote, ``The idea is 
not that virtuous U.S. and Russian behavior in the form of 
steep nuclear arms reductions will inspire aspiring 
proliferators to abandon their quests. We do not subscribe to 
this naive notion. Rather, there are reasons to believe that 
such behavior could inspire the anti-proliferation partners to 
get tougher with recalcitrant states seeking the bomb.''
    So how do you respond to that statement? And our non--well, 
let's start with that. How do you respond to that?
    Dr. Rademaker.
    Mr. Rademaker. I am happy to respond to that.
    I wish that statement were true. I wish it were true. I 
wish it were demonstrably true that deep U.S. nuclear 
reductions will inspire not the Irans and North Koreas to stop 
nuclear proliferation but inspire other countries in the world 
to do more against Iran and North Korea. I think that was the 
thrust of the statement you just read.
    Regrettably, I see no evidence that this is true.
    No one can fault President Obama for not being deeply 
committed to nuclear disarmament, to the global zero goal. He 
has taken meaningful steps. He negotiated a new arms control 
agreement. He made concessions at the NPT review conference a 
few years ago. His heart is in the right place. But 
international cooperation with U.S. policy towards Iran and 
North Korea, it has not increased. There has been one U.N. 
Security Council resolution adopted during the Obama 
administration ratcheting up sanctions on Iran. There were 
three such resolutions adopted during the Bush administration.
    The one adopted during the Obama administration was a good 
resolution. But, unlike the previous three, it was opposed. It 
was actually voted against by two countries, Brazil and Turkey.
    Now Brazil and Turkey are precisely the kinds of countries 
that one would expect to be inspired by U.S. leadership on 
nuclear disarmament. Whatever they were inspired to do, it 
backfired, because they voted against the resolution to ratchet 
up sanctions on Iran and North Korea.
    And, you know, Congress is--I think in a few minutes you 
are going to be voting on the House floor on a new Iran 
sanctions bill. And, you know, what is that bill about? 
Fundamentally, it is like all of the other Iran sanctions bills 
over the past 10 years. It basically uses U.S. sanctions not 
against Iran and not against North Korea but U.S. sanctions 
against other countries to compel them to do more.
    So I mean nuclear disarmament isn't compelling and isn't 
inspiring them to do more, and so in a few minutes you probably 
are going to vote to impose U.S. sanctions on other countries 
that don't do more. And it is regrettable that is the way we 
have to proceed, but U.S. leadership on nuclear disarmament is 
not producing the kind of reaction internationally that we 
would like to see.
    Dr. Schake. I agree with Steve's point.
    I would just add that we have actually a terrific large-
scale example from the end of the Cold War, which is that, with 
the end of the Cold War, the United States and the NATO allies 
reduced our non-strategic nuclear forces, our weapons deployed 
in Europe by 93 percent, almost 2,000 weapons, and that didn't 
precipitate greater cooperation on Iran sanctions. It didn't 
precipitate the Russians being more helpful on 
nonproliferation. It didn't even precipitate the Russians 
reducing their non-strategic nuclear weapons in Europe.
    So I just don't think analytically there is a connection 
between those two things, as much as I wish there was.
    Ambassador Graham. Well, I agree with General Cartwright's 
statement. I have generally found in my work in 
nonproliferation and disarmament that senior military people of 
the United States have a very sound view of what reality is.
    With respect to carrying out our nonproliferation 
obligations and eventually moving toward a situation where we 
can have a multilateral disarmament negotiation involving 
China, Britain, and France, we do have to move to lower levels 
to get somewhere close to where they are. And I think if we 
were to move to that number that we would be going in the right 
direction.
    We have far more weapons than we need in today's world as 
opposed to the Cold War. But I would certainly not argue that 
reducing the U.S. stockpile, in negotiation or not, with our 
other nuclear weapons state partners, the P5, would have any 
effect on Iran. They march to their own drummer.
    And by the same token I think the jury is out on how much 
effect sanctions have had either on what Iran is doing. I mean, 
I have some ideas about what we might do, but they would be 
different from that.
    Mr. Langevin. Thank you.
    Let me turn to, at the 2010-2012 Nuclear Security Summits 
numerous countries around the world made specific pledges to 
combat nuclear terrorism by securing and eliminating dangerous 
nuclear weapons, usable materials, ratifying nuclear terrorism 
conventions and treaties, strengthening export controls, 
countering nuclear smuggling, and more. To what extent has 
President Obama's leadership on nuclear security, arms control, 
and disarmament contributed to the willingness of other 
countries to take on greater responsibilities in the nuclear 
security arena?
    Ambassador Graham, let's start with you.
    Ambassador Graham. Well, I think on that particular 
subject, the NSS, the Nuclear Security Summit, it has been 
decisive. It wouldn't have happened but for him.
    Mr. Rademaker. I think President Obama has done a good job 
focusing attention on the risk of loose nuclear material and 
the need to bring them under control. I think these Nuclear 
Security Summits have been a good idea.
    I don't think any of us should be deceived into thinking 
that this is some new idea, that this was some new problem that 
was discovered during the Obama administration and addressed 
during the Obama administration for the first time. There has 
been awareness of this problem for a long time.
    Senators Nunn and Lugar showed great leadership two decades 
ago in spotting this problem and setting aside U.S. resources 
to attempt to get these kinds of materials under control. This 
has been an ongoing effort ever since the President George H.W. 
Bush administration to try and get these materials under 
control.
    And you are correct. Progress has been made during the 
Obama administration, as has been made during the previous 
administrations.
    Would that progress have been achieved but for President 
Obama's commitment--expressed commitment to global nuclear 
zero, to the greater progress towards nuclear disarmament? I 
don't believe so. I mean, I do not believe that that commitment 
on his part is what resulted in the progress that we have seen.
    I think, you know, when Ukraine gives up HEU [highly 
enriched uranium] that it is using to fuel a research reactor 
it is not making a calculation based on, well, the Americans 
are moving forward with nuclear disarmament, so we will give up 
this HEU. They make a decision based on, you know, what is in 
their national interest. And, you know, there is a transfer of 
resources involved. We facilitate this. We pay for this. And, 
you know, these are not unwilling partners. They are happy to 
do it. But it costs money. So the arrangements have to be made 
for the work to be done.
    And President Obama has done a good job but so have his 
predecessors, and it really has little to do, in my opinion, 
with President Obama's commitment to the global nuclear zero 
agenda.
    Mr. Langevin. My final question is, why does the 
Comprehensive Test Ban Treaty matter?
    Dr. Graham.
    Ambassador Graham. What is it about, Congressman?
    Mr. Langevin. Why does the Comprehensive Test Ban Treaty 
matter?
    Ambassador Graham. Why does it matter?
    Well, as I was saying earlier, the NPT is based on a 
strategic bargain, nonproliferation for most of the world in 
exchange for disarmament and peaceful cooperation by the five 
nuclear weapon states.
    The negotiators of the NPT made it very clear that, number 
one, that meant a comprehensive test ban. They understood that 
reductions during the Cold War and probably thereafter in 
nuclear weapons, which is what they wanted most, were extremely 
difficult and would take a very long time. But at least the 
nuclear weapon states could stop testing.
    As I said, it is a strategic bargain. It is not a gift from 
all of these countries of the world. Just give up the weapons, 
because you are such nice guys. They are giving up--they have 
been asked by treaty, they are required by treaty to give up 
the most destructive weapons, to never have the most 
destructive weapons that have ever been produced. They 
bargained for that. And the principal provision, principal 
agreement that gives the necessary political balance to the NPT 
is the test ban. That has been clear for 45 years after the 
treaty was negotiated.
    Review conference after review conference failed over the 
inability to agree to that. So I think personally that the test 
ban is in the national security interests of the United States 
for a number of specific reasons, and in particular it makes it 
difficult for other countries to develop sophisticated nuclear 
programs that don't now have them.
    But, beyond that, it is the essential glue that holds 
together the NPT; and I am not sure, looking years into the 
future, whether the NPT can hold together without it. And if 
the NPT doesn't hold together, well, today's security situation 
will seem like paradise by comparison with what will happen 
after that.
    Mr. Langevin. Dr. Rademaker, would you comment, please.
    Mr. Rademaker. In my opinion, Ambassador Graham seriously 
exaggerated the risks to the NPT in the event that the CTBT is 
not ratified.
    The first point I make about the CTBT is it is not coming 
into force for decades, no matter what the United States does. 
There is a provision in the CTBT called Annex 2 that requires 
44 states to ratify that treaty before it enters into force. So 
far, 7 of those 44 have not ratified.
    One of them is the United States, and in Ambassador 
Graham's testimony he asserts that as soon as the United States 
moves forward most of the others will as well. He doesn't say 
all of the others will, because it is clear not all of the 
others will.
    But I would actually argue that probably none of the others 
will, because the countries that are holding out have their own 
reasons for doing so. The CTBT will not enter into force until 
North Korea ratifies it. It will not enter into force until 
Iran ratifies it. It will not enter into force until India and 
Pakistan ratify. It will not enter into force until Israel and 
Egypt ratify. Egypt in some ways may be the hardest one of all 
of those cases for reasons that I could go into, but they have 
a very serious problem with that treaty under current 
circumstances. And until all of those countries ratify it, it 
will not enter into force. We are decades away from that being 
possible, in my opinion.
    In the meantime, there is, in fact, a nuclear testing 
moratorium. The last major country--the last nuclear weapon 
state to test a nuclear weapon was France. The United States 
hasn't tested nuclear weapons for over 20 years.
    I would predict this moratorium is going to continue. For 
the non-nuclear weapon states, existence of a moratorium is, in 
my opinion, more important than the existence of a treaty 
forbidding testing.
    And so I think this dire prediction that the NPT will 
collapse if we don't ratify the CTBT better not be true. 
Because, as I say, we are decades away from it entering into 
force in the most optimistic scenario, and I think the United 
States is not on track to ratify it, either.
    Mr. Langevin. So you are arguing that even the fact that 
CTBT exists but hasn't been ratified, are you saying that that 
has absolutely no effect at all on proliferation issues?
    Mr. Rademaker. I think bringing the CTBT into force will 
not slow down the Iranian or North Korean nuclear weapons 
programs.
    You know, North Korea was a member of the Nuclear 
Nonproliferation Treaty. It had undertaken a solemn obligation 
not to process nuclear weapons. It went ahead and produced a 
nuclear weapon.
    Advocates of the CTBT want us to believe that it is a hedge 
against nuclear proliferation because countries need to test a 
nuclear weapon before they can deploy it; and so, if they are 
forbidden to test it, they will never do that.
    Well, you know, all of those countries are already 
forbidden to possess them. So, you know, if they are prepared 
to violate one treaty obligation in order to acquire nuclear 
weapons, what makes anyone think that they wouldn't be prepared 
to violate two treaty obligations, the NPT and the CTBT, in 
order to deploy nuclear weapons?
    So, no, I don't see where it gives us much meaningful at 
all in the struggle against nuclear proliferation.
    Mr. Langevin. I know my time has probably expired, but Dr. 
Graham, if you do care to comment, respond, that would be okay.
    Ambassador Graham. Well, first, I would say that a treaty 
is better than a moratorium because you get verification with 
the treaty and some enforcement. And so, I hope that someday we 
can have a treaty. With respect to who might join? Well, China, 
Israel, and India have all, at various times, said that they 
are waiting on us. Egypt, it is pretty clear, is waiting on 
Israel. Pakistan, it is pretty clear, is waiting on India. So 
we come down to Iran and North Korea, just where we are with 
everything else. We will have to deal with them. Whether we can 
or not remains to be seen.
    Mr. Rademaker. I would be interested in your comment on 
Egypt.
    Ambassador Graham. What is that?
    Mr. Rademaker. Comment on Egypt.
    Ambassador Graham. Egypt, as I said, is waiting for Israel.
    Mr. Rademaker. In my experience, Egypt is not waiting on 
Israel to ratify the CTBT. Egypt is waiting on Israel to join 
the NPT, which is a radically different step than ratifying the 
CTBT.
    Ambassador Graham. Well, Egypt--of the countries of the 
world, Egypt and Indonesia were probably the two strongest ones 
to have a Comprehensive Test Ban Treaty. They were in the 
forefront for years. They have been committed to it for years. 
Maybe they have had a change of heart, but I doubt it.
    Mr. Langevin. With that, I yield back.
    Mr. Turner. I wonder what their communications were to 
North Korea when they began their testing. I was concerned 
about--I really appreciated Mr. Langevin's opening question 
with the issue of--which was framing really what we are trying 
to discuss here, of those that believe that our actions are 
going to dissuade others from pursuing nuclear weapons. And 
there was a statement in the quote that I would like to pursue 
for just a moment. Mr. Franks has allowed me to use a portion 
of his time for that.
    In the statement that Mr. Langevin read, the words ``anti-
proliferation community'' was in there. So I have a few 
questions about the anti-proliferation community. One, who is 
the anti-proliferation community? Second, do they have any 
influence? And the third thing is, if there is such an anti-
proliferation community, by the definition, why is it that they 
would be more or less motivated to pursue others not seeking 
nuclear weapons based upon anything that we do with respect to 
our own arsenal?
    Ambassador Graham. Well, I guess I have to answer that one. 
Frankly, I have never heard of the anti-proliferation movement 
or community. It is usually called the nonproliferation 
community. So I assume that is what the group or community that 
the general was referring to. I think that----
    Mr. Turner. Either way. Who are they? Do they have 
influence? And if they are such nonproliferation community, why 
is it that their commitment to nonproliferation as the 
nonproliferation community would be lessened or strengthened 
based upon the accounting of the size or lack of size of our 
arsenal?
    Ambassador Graham. Well, if he is referring to the 
nonproliferation community in the United States, he is 
referring to various organizations that promote 
nonproliferation, such as the group I described at Hoover, and 
also, many NGOs [nongovernmental organizations] that operate at 
the U.N. and here in Washington. I guess they would--
particularly some of the ones here in Washington perhaps were 
encouraged by his statement. But I don't think it would have 
any effect on their commitment to their objectives.
    Mr. Turner. That's what I think. Thank you for saying that, 
Ambassador Graham. It really has no effect on their commitment. 
Mr. Rademaker.
    Mr. Rademaker. Mr. Chairman, I think you ask an excellent 
question. And it is precisely the right question. The whole 
premise of that assertion that was ascribed to General 
Cartwright and Ambassador Pickering that there is some group 
out there, group of countries that are waiting to do more but 
holding back because they need to see more progress on nuclear 
disarmament before they will do more to stop proliferation, 
that assumes a degree of calculation on the part of 
proliferation opponents that I don't believe exists. I don't 
believe there are a group of people out there, a group of 
countries out there opposed to nuclear proliferation but 
holding back, and by holding back, allowing, consciously 
allowing Iran and North Korea to make additional progress on 
their nuclear weapons programs because they are angry, they are 
angry at America for not disarming faster, they are angry at 
the other nuclear weapons states, and so they are letting Iran 
and North Korea to make progress, waiting for us to do more 
before they will do more. I don't believe that exists. I have 
never heard----
    Mr. Turner. It would be illogical and wrong.
    Mr. Rademaker. Correct. I have never heard a single country 
identified as behaving in that manner. And all countries--who 
is the nonproliferation community? It is all of us. Because all 
of us care about the risk of nuclear proliferation. So America 
is part of it. Could America do more against nuclear 
proliferation? Absolutely. Why don't we do more? Because we 
have other priorities. We could go to war against Iran. If we 
wanted to stop the Iranian nuclear weapons program, we would 
invade, right? That would stop it. But that would come at a 
cost, and we are not prepared to pay that cost. And short of 
going to war, there is a long list of other sanctions we could 
impose, other measures we could adopt. But all of them would 
come at a cost. And we are not prepared to pay the cost.
    So just as the United States makes a calculation based upon 
its national interests about how far it is prepared to go, 
every other country does the same thing.
    Mr. Turner. Dr. Schake, I am going to have to step out 
after your answer, and then Mr. Franks is going to chair the 
remainder of the hearing.
    Dr. Schake. I would just pile on that when we talk about 
the nonproliferation community, we are not just talking about 
states and their choices, we are talking about civil society 
groups that are part of the richness and the delightful texture 
of free societies. There aren't those groups with the freedom 
to activate in the kinds of countries we are worried about 
crossing the nuclear threshold.
    Mr. Franks [presiding]. The second string has arrived here. 
I was particularly impressed, Dr. Schake, by your very 
straightforward conclusion that the nuclear weapons, as 
dangerous as they are, the real danger is in whose hands they 
are in. You know, I sleep fairly safe at night, fairly soundly 
at night, not too worried about my 4-year old twins knowing 
that England has nuclear weapons. But I am fairly nervous about 
Iran gaining nuclear weapons. And Dr. Rademaker, I, again, 
appreciated your comments related to others somehow responding 
to our actions.
    You mentioned, related to Iran's nuclear program, and I 
know that is on everyone's mind, sanctions. And I am going to 
build a premise and just ask you to respond, all of you, if you 
will. And that is that, you know, we have had economic 
sanctions against North Korea for 60 years. And in the last 
couple of decades, almost to starvation. And they have tested 
twice. And given Iran's, some of their leaders' commentary, 
which is pretty dramatic at times, I am just wondering what 
type of sanctions program do you think will dissuade them from 
pursuing a nuclear weapon?
    It appears to me that if indeed their goal is to gain 
nuclear weapons, that I have the distinction of being one of 
the first Members of the House 7 years ago to suggest that and 
to call for them to be referred to the Security Council; if 
that is the case, then is there a diplomatic solution? Are 
sanctions going to be effective? I will stop there and ask you 
to respond.
    Mr. Rademaker. First, to clarify, are you speaking about 
North Korea? Or North Korea and Iran, or----
    Mr. Franks. I am talking about Iran in this particular 
case.
    Mr. Rademaker. With regard to Iran, I have not despaired 
about sanctions because I believe there is more that can be 
done. But it is evident that all that we have done up to this 
point has not been enough. So the question is, is there more 
that we can do? And I think--the good news is that there is 
more that we can do. The problem is that it is hard. We have 
done a lot, but Iran remains vulnerable. Most importantly, 
Iran's economic lifeblood is its oil exports. And in the most 
recent--not the round of sanctions that you are going to be 
voting on in a few minutes, but the previous one adopted as 
part of the Defense Authorization Act last year, new sanctions 
were adopted, applied to the financial sector, but the object 
of those sanctions was to make it increasingly difficult for 
Iran to export oil by making it impossible for countries to pay 
for the oil that they might buy from Iran.
    That was absolutely a step in the right direction. But I 
think the real linchpin of trying to bring enough economic 
pressure to bear on Iran for them to change their calculation 
has to involve pushing their oil exports down in the 
direction--much further down in the direction of zero. Because 
when that revenue stops, then I think their economy will be in 
such a situation that the regime will have no choice but to 
take steps with the nuclear program that would relieve the 
economic pressure. We haven't gotten there yet. We have taken 
some steps in the right direction, but we need to figure out 
how to drive Iranian oil exports towards zero and cut off that 
revenue.
    Mr. Franks. Dr. Schake, I want to get to you, but my 
concern is if you listen to Iranian President Ahmadinejad, 
related to economic sanctions, his quote is, ``If they want to 
continue with the path of sanctions, we will not be harmed. 
They can issue resolutions for 100 years.''
    Supreme Leader Ayatollah Khamenei said, ``With God's help 
and without paying attention to propaganda, Iran's nuclear 
course should continue firmly and seriously. Pressures, 
sanctions, and assassinations will bear no fruit. No obstacles 
can stop Iran's nuclear work.'' That seems to me that there is 
a fairly strong intent there. And given what I just said 
related to 60 years of sanctions against North Korea, do you 
think that Iran generally, truly--I mean, some of us have 
suggested sanctions that would be so significant that a crow 
flying across Iran would have to pack a lunch. And yet those of 
course didn't gain traction in this environment. But I am not 
sure that even they would be effective. And Dr. Schake, perhaps 
you would like to respond to that as well.
    Dr. Schake. I think Congress has been exemplary in pushing 
the sanctions issue, but obviously it is not working because 
the government of Iran is still saying the kinds of things that 
the government of Iran is saying, and they are continuing to 
pursue their nuclear weapons program. It does seem to me that 
sanctions may be approaching a point at which they force the 
Iranian leadership to deal with domestic pressure. And I think 
in authoritarian societies, punishing the society writ large 
for the choices of bad leaders raises ethical questions.
    And one of the things I really like about the sanctions 
that Congress has pursued is that it is not just blanket 
punishment for Iranians, it targets the people involved with 
the program, it targets the people who are funding the program, 
it targets banks that--and secondary suppliers. That is 
terrific.
    Nonetheless, I think the sanctions that are on Iran now 
begin to bite in a way that the leadership ought to be worried 
about regime change coming from within the country. And that 
argues for continuing to turn the screws on sanctions.
    Mr. Franks. Well, you know, just for the record, I have 
certainly argued for sanctions and regime change in every way 
possible. I guess I have just begun--it has begun to occur to 
me that perhaps the administration's lack of making it clear 
that the sanctions and the regime change efforts and all of 
those would be ultimately backstopped by a military threat if 
it became necessary--and I don't know where that threshold is 
crossed--there doesn't seem to be a backstop there.
    And so I am just concerned whether the sanctions can be 
effective. I hope they can. No one argues for them more than I 
do. But ultimately, I am just not certain that that--and it 
seems to me that that is a pretty important question to be 
certain about, given that if Iran gains nuclear weapons, my own 
perspective is that we will need a new calendar because it will 
change our world that much. I think that they will give them to 
terrorists the world over. And I base that upon what they have 
done with explosively formed penetrators in Iraq and other 
places that they know that we know that they know will kill our 
troops. Three out of four of our casualties are connected to 
those kinds of things. So that is a concern. Let me shift 
gears----
    Ambassador Graham. Could I comment on that?
    Mr. Franks. Please.
    Ambassador Graham. Well, in my view, Congressman, there is 
no evidence that sanctions have been successful in deterring 
Iranian behavior yet. And I am very skeptical that at least in 
the short-term foreseeable future, that they will. The problem 
is not that the sanctions aren't good. They are well-written 
and sound. But they cheat on them with China and Russia. They 
manipulate around them by selling oil through foreign banks and 
taking payment in gold. And there is lots of loopholes in them. 
There is exceptions for this organization and that 
organization.
    I just am very skeptical that sanctions really will ever 
work as far as stopping Iran's program. I would like to see--I 
hope that I am proved wrong. I would like to see the program 
stopped. But I think it is unlikely through sanctions. And the 
military option, of course, is there, but our experts, like 
Secretary of Defense Gates tells us, that it would just slow 
down Iran for a few months unless we make it into a major war, 
I mean, a big-time war, with months of bombing and an invasion. 
That could happen. I don't think it is very likely in the 
aftermath of Afghanistan and Iraq. So my sense is that as 
important as this issue is, we may have to try to figure out 
some other way to stop them.
    Mr. Franks. Well, I am all ears, Ambassador.
    Ambassador Graham. Well, I think one thing is we have had 
some success with sabotage, either directly through getting 
access to the equipment, or sending in computer worms, which 
did set them back some months. And I think the important thing 
here, Congressman, in the end this isn't going to be solved 
until there really is some kind of change of government there. 
They have a horrible government. And they have a public that is 
pro-west, middle class, well-educated, wants to live in a 
democratic state. Time is on our side.
    And so I think we should play for time through measures 
like this and other measures. That is my best judgment, looking 
at what people say about what it is we are doing, either the 
military option or--or might do, military option, and what we 
have done with sanctions so far. If they work, great. I am all 
for it.
    Mr. Franks. Well, let me, as I say, shift gears and play 
off of what you spoke of as the whole time frame. You know, 
oftentimes, as you know, when we predicted that North Korea was 
a decade away from testing their missile capability, they 
tested that year. And so our predictive timetables have often 
been a little off. And in this case, that seems to be a pretty 
significant implication. So Mr. Rademaker and Dr. Schake, all 
of you, what time frame do you suggest if Iran chose to move 
towards actually gaining a warhead? Just one or two, let's say. 
Because one or two warheads, how long would it take them to do 
that from this moment if they were serious about it? Your 
prediction. I know there are only two kinds of people who 
predict the future, those who don't know and those who don't 
know they don't know. But your prediction would be?
    Mr. Rademaker. How quickly could they achieve a warhead 
from a decision to produce one?
    Mr. Franks. Yes.
    Mr. Rademaker. I think very quickly, actually. The key 
timeline, really, is their production of fissile material, 
which they are making enormous progress on. You know, 
Ambassador Graham talks about the Stuxnet virus and sabotage. 
And, you know, I have read the same reports, and it sounds like 
some good things were accomplished. Unfortunately, when the 
IAEA reports every quarter on the rate of production of 
enriched uranium in Iran, the graph has just continued straight 
upward.
    Mr. Franks. Yes.
    Mr. Rademaker. So maybe it would be an even steeper upward 
line, but it is a rate of progress that is bringing Iran 
increasingly close to where they would have ample fissile 
material to produce not one, not two, but multiple nuclear 
warheads should they choose to do so. The Obama administration 
has basically said for them--as I understand it, for them the 
red line is evidence that Iran has decided to actually produce 
a nuclear weapon.
    I worry that by the time we receive persuasive evidence of 
that, it will be too late, that they will be so close that 
maybe they will even already have the weapon by the time we 
realize that they have made the decision. Because again, the 
critical path is the fissile material. And that tells us what 
their options are. And we need to stop their production of 
fissile material. You know, there is what I would consider a 
fairly dangerous theory afloat that Ambassador Graham may 
actually agree with it, a theory that we ought to allow Iran to 
continue enrichment, cut some diplomatic deal with them that 
allows them to keep producing enriched uranium under safeguards 
and measures designed to satisfy us that they are not turning 
that enriched uranium into highly enriched uranium that they 
could put in a weapon.
    That has not been the policy of the international community 
up until now. It has not been what is required under U.N. 
Security Council resolutions. But there are still plenty of 
advocates in the diplomatic community and elsewhere saying that 
is the best we are going to achieve with Iran, we need to put 
this confrontation behind us, let's cut a deal that allows them 
to enrich uranium under safeguards. I think that is a scenario 
for Iranian nuclear breakout.
    Mr. Franks. I couldn't agree with you more. It occurs to me 
that under the increased sanctions programs of the last few 
years, you know, Iran has tripled its uranium output, and it is 
moving enrichment facilities deep underground at Qom, and it is 
now restraining the IAEA from even inspecting weaponization 
facilities. So when I hear that time is on our side, I have a 
hard time embracing that. Dr. Schake.
    Dr. Schake. I want to pile on that very notion, because I 
agree with Ambassador Graham that Iranian society is changing 
in positive, vibrant ways that are really good for Iran's long-
term future. I do not believe time is on our side for exactly 
the reason Steve Rademaker said, which is the graph of their 
uranium enrichment is off the charts. And what we are trying to 
play is the nexus of those two things, right, because the good 
outcome is an Iranian government that we don't fear taking 
these kinds of choices. And I don't think we are anywhere near 
that.
    If I could just say one more thing about the timeline, 
because I agree that is exactly the right question. The most 
honest assessment I have ever seen of that is the one that the 
Rumsfeld Commission on ballistic missile defenses did in 1999, 
which was that they believed Iran had the capacity to build 
weapons within 5 years of the decision to do so, and we have no 
idea whether they have already decided to do so. My guess is 
that in the year 2012, they have already long decided to do so. 
And it is quite dangerous, I think, the way that both Secretary 
of Defense Panetta and the Director of National Intelligence, 
Jim Clapper, have both said with such blithe ease that Iran has 
not made that decision. I don't believe we know that. I don't 
believe that the burden of proof should be shifted to us to 
prove that they haven't done it, instead of them to prove that 
they haven't done it.
    Mr. Franks. Well, I mean just an observation on my part, it 
seems like we had more evidence than the O.J. Simpson trial, 
because this notion--but let me ask one last question, and I 
will give you a chance to answer it, Ambassador, because I 
would love to continue here, but in the interests of time, and 
in respect to everyone else here. There are a lot of different 
little idiosyncrasies that we could analyze, but in your minds, 
what is the significance of Iran gaining nuclear weapons? And 
what is our best option, if you are each President of the 
United States--and in some cases that would--if you are each 
President of the United States, what would be your recipe for 
preventing Iran to gain nuclear weapons? Would you allow them 
to go ahead and gain the weapons, and we will pursue the 
delusional policy of containment? I mean, what would be your 
ultimate answer to being able to prevent this? Because I just, 
you know, people like me have had a very, very difficult time 
with this question because I think it is one of the most 
seminal national security questions in the world. So Dr. 
Rademaker--I keep calling you Dr. Rademaker. But Mr. Rademaker, 
go with you.
    Mr. Rademaker. I am not a doctor or an ambassador. I am 
sorry.
    Mr. Franks. Pretty bright guy either way.
    Mr. Rademaker. There is time. Mr. Chairman, I like your 
question a lot because I think it really points up one of the 
problems inherent in the global zero agenda, or the world 
without nuclear weapons agenda that we hear so much about. I 
absolutely don't recommend allowing Iran to get nuclear weapons 
and then trying to deal with it down the road. I think we need 
to stop that. And I think there have been a lot of ideas thrown 
out today about what we need to do, what else we can do to stop 
that from happening. Regrettably, I think if you had to predict 
today are we on track to succeed? Are we going to stop Iran 
from achieving a nuclear weapon? The evidence that I see 
suggests no.
    You know, we failed in North Korea. We tried for a long 
time, but we failed. North Korea got nuclear weapons. I hate to 
say it, but I think the likelihood is that we are going to fail 
on Iran. Certainly we are failing right now. And so your 
question then is what do you do when that happens? Well, as Dr. 
Schake said, if Iran gets nuclear weapons it radically 
transforms the Middle East. And there are a number of 
implications having to do with how aggressive they will be in 
doing all the bad things they are already doing, like 
supporting terrorism, and trying to disrupt the Middle East 
peace process, and those sorts of things. But more immediately 
for the nuclear weapons issue, is the risk that Iran's 
neighbors are going to feel profoundly threatened by an Iranian 
nuclear weapon.
    And unlike in Northeast Asia, you know, where North Korea 
got a nuclear weapon but every other country in the region 
could kind of relax about that because they all either had 
their own nuclear weapons in the cases of Russia and China, or 
they lived under the U.S. nuclear umbrella. So for Japan and 
South Korea, they know that there are American nuclear weapons 
there to protect them in the event that North Korea uses 
nuclear weapons against them.
    In the Middle East, there is really only one country in 
Iran's vicinity that is under the U.S. nuclear umbrella, and 
that is Turkey. There are a lot of countries that are going to 
feel deeply threatened, particularly the Arab countries. 
Because there are religious and ethnic differences between the 
Iranians and their Arab neighbors. These are serious countries, 
Saudi Arabia, Iraq, UAE. I mean, serious countries that are 
going to be deeply worried about their security. And they are 
all going to wonder the day after Iran tests a nuclear weapon--
--
    Mr. Franks. Mr. Rademaker, I want you to know I am in 
violent agreement with every word that you said, but what would 
be the way to prevent this?
    Mr. Rademaker. I think the formula--I don't think the day 
after that happens we are going to despair and say, well, I 
guess now every country in the Middle East is going to have a 
nuclear weapon, that is a pity, we failed, let's go home to 
America. I think the day after that happens, our policy will 
change, and it will become one of trying to persuade all of 
those countries that they don't need to deploy nuclear weapons 
in reaction to Iran. And how do you persuade them of that? 
Well, you know, throughout the Cold War, we confronted that 
problem. The way we dealt with it was through the policy that 
the experts called extended deterrence.
    Mr. Franks. But I don't think I am hearing you--it sounds 
like you are saying after they get them.
    Mr. Rademaker. I am sorry?
    Mr. Franks. You are saying after they get them, we don't 
want everybody else to get them. That is a fine idea. But how 
do we prevent Iran from gaining nuclear weapons?
    Mr. Rademaker. You are right, I was speaking to what I 
thought was the first part of your question, which was how do 
we respond if they get them?
    Mr. Franks. If they get them, I think we all jump off the 
Capitol.
    Mr. Rademaker. Using American nuclear weapons to deter 
them. Which is why unfortunately there is still a need for 
American nuclear weapons is the point that I was getting at. 
But how do you stop them from getting them in the first place?
    Mr. Franks. Yes, sir.
    Mr. Rademaker. I think a lot of the ideas that were 
suggested here, we have to try all of them. We have to ratchet 
up our sanctions, we have to bring to bear a credible threat 
that military force actually is on the table. I mean, Obama 
will sometimes say all options on the table, but I don't think 
the Iranians believe it. There are plenty of reasons why they 
think the administration----
    Mr. Franks. Since they are thinking about bombing our own 
embassy here, I think perhaps you make a good point that they 
may not be as afraid of us as we would like them to be.
    Mr. Rademaker. I think that is exactly right. We have to 
construct a series of measures that will force them to 
reconsider the course that they are on. And it is going to 
require greater exertions on our part.
    Mr. Franks. Well, I agree with you, but I will have to tell 
you that your response is not that comforting to me. And with 
total respect. Dr. Schake, would you like to take a shot at how 
do we prevent Iran from gaining nuclear weapons?
    Dr. Schake. Yeah. I think the only way you prevent Iran 
from gaining nuclear weapons is to credibly convey that we will 
not permit it to happen. We will destroy it, we will advocate 
the overthrow of any Iranian regime that moves on the path to 
getting nuclear weapons. We have tried in so many different 
ways to cajole and persuade them that they shouldn't want what 
they think they want. And it looks to me like we make, again, 
no progress on this. The only time it looks to me the Iranians 
were serious about walking back from their nuclear program was 
the letter from the Iranians in the spring of 2003 after we had 
invaded Iraq.
    Military force really matters. And if they think that they 
do not have the ability to get there without us taking it away 
from them, I believe that is the only thing that has 
demonstrated any ability to put a restraint on this program 
beyond their access to nuclear materials.
    Mr. Franks. I am going to let Ambassador Graham respond 
here. I just want to throw in here that I think that really is 
the issue. You know, we are all nonproliferators, even those of 
us that advocate for a strong nuclear capability in America for 
all kinds of reasons. But the reality is that as much as we 
favor these other things, it occurs to me that the best way 
that we can prevent some military action against Iran is for 
them to know and believe that we will, indeed, respond 
militarily if that is necessary. And I do not think we are 
there. Mr. Ambassador.
    Ambassador Graham. Thank you, Congressman. First, let me 
just make a brief comment on what would happen if they did 
acquire nuclear weapons, the Iranians, in the Middle East, 
because that did come up. And I think that the proliferation, 
the spread of weapons would be quick. Many of us believe that 
all it takes for Saudi Arabia to acquire nuclear weapons is a 
phone call to Islamabad, and they will have the weapons because 
they paid for the Pakistani program. Saudis at very high levels 
have told me they will make that phone call if there ever is an 
Iranian stockpile. I think that is some deterrence for Iran, 
because the last thing they should want is for Saudi Arabia to 
have nuclear weapons. They are right next door.
    So I myself have long believed that they won't ever take 
that final step to actual--an actual stockpile, that their 
objective is to get right close so they can build weapons 
quickly, a nuclear weapon capability, which, in itself, would 
be bad, but not quite as bad. But that is anybody's guess. But 
that is virtually a certainty, in my opinion.
    Coming back to the question of how can we stop them? As I 
said earlier, there is no good evidence that sanctions will 
stop their program. Maybe, possibly if they are tightened up 
and some new sanctions are developed. I mean, I won't say it is 
impossible. But the track record is not good. And I don't think 
we should place much reliance on that, on sanctions.
    Military options, as I said before, we are talking about 
probably being able to delay them a few months or maybe even a 
year unless we want to have an all-out war with 65 million 
people. And if it is that serious, I mean, if we take it that 
seriously, I am not saying that--I am not saying yes or no, but 
I think it is unlikely, after having fought two wars, that we 
are going to fight another one in the near future. I think the 
Iranians are well aware of that. So I don't think that military 
threats are going to deter them very much either.
    Mr. Franks. Let's see if I can. I would like to get to what 
your thought what will prevent it.
    Ambassador Graham. Well, I don't think anything will 
prevent it. I think we have got to try disrupt, sabotage, make 
it difficult for them to move forward through various under-
the-table means, and try to drag it out as long as we can. And 
in terms of time being on our side, I meant long term, not how 
fast can they build weapons. But I don't think this regime will 
last forever. But I just don't really realistically see 
anything else than that that is likely. Yes, we could have a 
war. I think it is unlikely. It is possible. Unlikely. 
Sanctions might work. Unlikely. A brief military attack 
probably wouldn't work, but, of course, we could try it.
    Mr. Franks. The Israelis tried it at Osirak. Let me, if I 
could then, without objection here, I am going to go to Mr. 
Langevin again. Without objection, the statement from Dr. Sagan 
will be included in the record of today's hearing. And hearing 
no objection, so ordered. And thank you for your patience, Mr. 
Langevin.
    [The information referred to can be found in the Appendix 
on page 116.]
    Mr. Langevin. Thank you, Mr. Chairman. And again, thanks to 
our witnesses, their patience today as well, and the dialogue 
we have engaged in today. I wanted to turn back to the reset 
discussion that we are having with Russia. Obviously, despite 
disagreements in some areas, Russia clearly is an important 
partner on a range of critical security issues. And President 
Obama's pragmatic approach, many would believe, in engagement 
with Russia has yielded numerous benefits, including Russian 
logistical support for the U.S. mission and troops in 
Afghanistan, especially access to key transit routes; the 
security and elimination of hundreds of weapons worth of 
dangerous Russian-origin nuclear weapons usable material; and 
Russian support for the toughest U.N. Security Council 
sanctions against Iran to date; and withdrawal by Russia of its 
contract to sell advanced air defense weapons to Iran among 
other things.
    So to what extent has the reset and the New START Treaty, 
which reduces the number of Russian deployed strategic nuclear 
weapons aimed at the U.S. homeland and gives the United States 
an essential window into their composition and location, help 
to strengthen U.S.-Russia cooperation in other areas central to 
U.S. security? And what would have been the impact on U.S.-
Russian relations had the U.S. Senate rejected the New START 
treaty?
    Ambassador Graham. If New START had been rejected by the 
Senate, the effect on U.S.-Russian relations would have been 
very bad. They made that clear themselves. There was some talk 
that they wouldn't cooperate on Iran at all. Of course, I would 
not say that they have been exactly a stalwart in dealing with 
Iran, Russia, and China. It was just an essential step to 
maintain and develop decent relations with the one country, the 
one country in the world whose cooperation is absolutely 
utterly essential if nonproliferation is going to succeed. It 
cannot succeed without long-term, or even medium-term--without 
U.S.-Russian cooperation.
    We, together, have 95 percent of the world's nuclear 
weapons, and we just must cooperate, as we always have, going 
back many decades into the Cold War. So I thought START was a 
valuable agreement. It essentially drew the line at where both 
sides are now. And that is a good thing. And it is very 
important to the relationship.
    Dr. Schake. I, too, was in favor of New START, because I 
believe that Russia is trending badly: president Putin's 
reelection. But even before that it was clear that the 
constraints on civil society and the Mafia nature of business 
in Russia is trending in a way that is dangerous for American 
interests as well as the interests of the Russians.
    So I am very much in favor of locking the Russians into 
binding agreements on things like their strategic nuclear 
forces, and things like the World Trade Agreement. Russia 
joining the World Trade Organization actually creates the 
possibility of Russia's business practices being subject to 
scrutiny and to law. And I think that is very much in American 
interests.
    Whether these things would have happened without the reset 
policy, I don't know. It seems to me that every new American 
administration tries to reset relations with Russia. I mean, I 
remember President Bush talking about looking into Putin's eyes 
and seeing his soul. And, but every new administration should 
try to reset relations with Russia. It matters in ways that are 
hugely important. But I actually think the constraint on the 
Russian-American relationship is the Russians, the Russian 
Government, and the bad way that it is trending.
    Mr. Rademaker. You asked an interesting question, 
Congressman. The question really is what--of the things that 
have happened in the U.S.-Russian relationship since New START, 
how many of them are attributable to ratification of the New 
START treaty, and how many of them would have happened even 
without the New START treaty? Of course, that is an unknowable. 
There is a thing called the post hoc, ergo prompter hoc fallacy 
where you assume one thing happened and then another thing 
happened, therefore the first one must have caused the second 
one. We need to be mindful of that fallacy as we analyze some 
of these issues that you threw out.
    I am reminded that Vice President Biden predicted--not just 
predicted, he asserted solemnly that one of the reasons the 
Senate needed to ratify New START was that this was important 
in the power struggle between then-Prime Minister Putin and 
then President Putin--I am sorry, then-President Medvedev, and 
that if we didn't approve New START, that would work badly for 
President Medvedev, and probably result in Prime Minister Putin 
returning as president of Russia.
    Well, to the extent ratification of START was supposed to 
do something about that, it obviously failed. But on the issues 
that you alluded to, Afghanistan, and transit for our U.S. 
troops there, I personally believe that it is not in the 
interests of the Russian Federation for NATO to fail in 
Afghanistan. You know, the Russians will play games, they will 
try and bring some pressure to bear on us over that issue, but 
at the end of the day it is in Russia's interests for NATO to 
succeed in Afghanistan. And I don't believe they are going to 
take steps contrary to their interests that would contribute to 
failure by us and NATO in Afghanistan.
    So I think transit is something that they have decided to 
allow because they made a calculation that it was in their 
interests.
    Support for a U.N. Security Council resolution against 
Iran. I have commented on this already. The Russians supported 
three U.N. Security Council resolutions imposing sanctions 
against Iran during the Bush administration in the absence of a 
new arms control agreement. They supported one during the Obama 
administration. Now, if you go back and study the evolution of 
that resolution, it is quite evident that as in the case of the 
three previous ones, Russia did everything it could to water 
down that resolution. It was walked back on issue after issue. 
But that is the way things work at the U.N. But let's just say, 
Russia could have been a lot more helpful in putting together a 
strong resolution. Russia chose not to be helpful in making 
that resolution stronger.
    Then, of course, there was the quote that the chairman put 
up on one of the slides earlier in the hearing, where 2 or 3 
days after the resolution was adopted, the Russians announced 
that is it, no further U.N. Security Council sanctions measures 
against Iran. We are finished with that. And that is the line 
that has persisted since 2010. I mean, today, the reason the 
U.N. Security Council is not a venue where Iran sanctions 
resolutions are being considered is because Russia says no.
    So, did our ratification of the New START cause Russia to 
take that position? Of course not. But you know, should we pat 
ourselves on the back over the one resolution adopted in 2010? 
I would suggest not. I mean, I think Russia supported what it 
supported in 2010 for reasons that had nothing to do with the 
New START treaty. And on the S-300s, you know, one of the 
interesting features of that Security Council resolution was 
they crafted it in such a way that the transfer of S-300 air 
defense missiles to Iran is permitted under the Security 
Council resolution.
    So as a policy matter, they have announced they are not 
going to do it. But they made sure that the international law 
that follows from U.N. Security Council Resolution 1929 would 
permit them to make that transfer if they chose to. So again, 
less helpful than they could have been.
    Mr. Langevin. Thank you, Mr. Chairman. I yield back.
    Mr. Franks. Thank you, Mr. Langevin. Without objection, a 
working paper by Dr. Matt Kroenig, ``U.S. Nuclear Weapons and 
Nonproliferation: Is There a Link?'' will be entered into the 
record.
    [The information referred to can be found in the Appendix 
on page 148.]
    Mr. Franks. And I just want to thank all of you. In terms 
of searching for that question on how to prevent Iran from 
gaining nuclear weapons, let me just suggest to you here in 
adjourning the meeting, that whatever the efforts that you 
make, or whatever the costs that we have as a Nation to 
implement that, it seems to me that it will pale in its 
significance compared to the costs of failing to prevent Iran 
from gaining nuclear weapons. So thank you all for what you do. 
This meeting is adjourned.
    [Whereupon, at 4:43 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             August 1, 2012

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             August 1, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5672.001
    
    [GRAPHIC] [TIFF OMITTED] T5672.002
    
    [GRAPHIC] [TIFF OMITTED] T5672.003
    
    [GRAPHIC] [TIFF OMITTED] T5672.004
    
    [GRAPHIC] [TIFF OMITTED] T5672.005
    
    [GRAPHIC] [TIFF OMITTED] T5672.006
    
    [GRAPHIC] [TIFF OMITTED] T5672.007
    
    [GRAPHIC] [TIFF OMITTED] T5672.008
    
    [GRAPHIC] [TIFF OMITTED] T5672.009
    
    [GRAPHIC] [TIFF OMITTED] T5672.010
    
    [GRAPHIC] [TIFF OMITTED] T5672.011
    
    [GRAPHIC] [TIFF OMITTED] T5672.012
    
    [GRAPHIC] [TIFF OMITTED] T5672.013
    
    [GRAPHIC] [TIFF OMITTED] T5672.014
    
    [GRAPHIC] [TIFF OMITTED] T5672.015
    
    [GRAPHIC] [TIFF OMITTED] T5672.016
    
    [GRAPHIC] [TIFF OMITTED] T5672.017
    
    [GRAPHIC] [TIFF OMITTED] T5672.018
    
    [GRAPHIC] [TIFF OMITTED] T5672.019
    
    [GRAPHIC] [TIFF OMITTED] T5672.020
    
    [GRAPHIC] [TIFF OMITTED] T5672.021
    
    [GRAPHIC] [TIFF OMITTED] T5672.022
    
    [GRAPHIC] [TIFF OMITTED] T5672.023
    
    [GRAPHIC] [TIFF OMITTED] T5672.024
    
    [GRAPHIC] [TIFF OMITTED] T5672.025
    
    [GRAPHIC] [TIFF OMITTED] T5672.026
    
    [GRAPHIC] [TIFF OMITTED] T5672.027
    
    [GRAPHIC] [TIFF OMITTED] T5672.028
    
    [GRAPHIC] [TIFF OMITTED] T5672.029
    
    [GRAPHIC] [TIFF OMITTED] T5672.030
    
    [GRAPHIC] [TIFF OMITTED] T5672.031
    
    [GRAPHIC] [TIFF OMITTED] T5672.032
    
    [GRAPHIC] [TIFF OMITTED] T5672.033
    
    [GRAPHIC] [TIFF OMITTED] T5672.034
    
    X[GRAPHIC] [TIFF OMITTED] T5672.035
    
    [GRAPHIC] [TIFF OMITTED] T5672.036
    
    [GRAPHIC] [TIFF OMITTED] T5672.037
    
    [GRAPHIC] [TIFF OMITTED] T5672.038
    
    [GRAPHIC] [TIFF OMITTED] T5672.039
    
    [GRAPHIC] [TIFF OMITTED] T5672.040
    
    [GRAPHIC] [TIFF OMITTED] T5672.041
    
    [GRAPHIC] [TIFF OMITTED] T5672.042
    
    [GRAPHIC] [TIFF OMITTED] T5672.043
    
    [GRAPHIC] [TIFF OMITTED] T5672.044
    
    [GRAPHIC] [TIFF OMITTED] T5672.045
    
    [GRAPHIC] [TIFF OMITTED] T5672.046
    
    [GRAPHIC] [TIFF OMITTED] T5672.047
    
    [GRAPHIC] [TIFF OMITTED] T5672.048
    
    [GRAPHIC] [TIFF OMITTED] T5672.049
    
    [GRAPHIC] [TIFF OMITTED] T5672.050
    
    [GRAPHIC] [TIFF OMITTED] T5672.051
    
    [GRAPHIC] [TIFF OMITTED] T5672.052
    
    [GRAPHIC] [TIFF OMITTED] T5672.053
    
    [GRAPHIC] [TIFF OMITTED] T5672.054
    
    [GRAPHIC] [TIFF OMITTED] T5672.055
    
    [GRAPHIC] [TIFF OMITTED] T5672.056
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             August 1, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5672.192
    
    [GRAPHIC] [TIFF OMITTED] T5672.193
    
    [GRAPHIC] [TIFF OMITTED] T5672.194
    
    <greek-l>STR decided to print only Sagan essay from 
larger document deg.

[GRAPHIC] [TIFF OMITTED] T5672.110

[GRAPHIC] [TIFF OMITTED] T5672.111

[GRAPHIC] [TIFF OMITTED] T5672.112

[GRAPHIC] [TIFF OMITTED] T5672.113

[GRAPHIC] [TIFF OMITTED] T5672.114

[GRAPHIC] [TIFF OMITTED] T5672.115

[GRAPHIC] [TIFF OMITTED] T5672.116

[GRAPHIC] [TIFF OMITTED] T5672.117

[GRAPHIC] [TIFF OMITTED] T5672.118

[GRAPHIC] [TIFF OMITTED] T5672.119

[GRAPHIC] [TIFF OMITTED] T5672.120

[GRAPHIC] [TIFF OMITTED] T5672.121

[GRAPHIC] [TIFF OMITTED] T5672.122

[GRAPHIC] [TIFF OMITTED] T5672.158

[GRAPHIC] [TIFF OMITTED] T5672.159

[GRAPHIC] [TIFF OMITTED] T5672.301


                              Slide 1
[GRAPHIC] [TIFF OMITTED] T5672.302


                              Slide 2
[GRAPHIC] [TIFF OMITTED] T5672.303


                              Slide 3
[GRAPHIC] [TIFF OMITTED] T5672.304


                              Slide 4
[GRAPHIC] [TIFF OMITTED] T5672.305


                              Slide 5
[GRAPHIC] [TIFF OMITTED] T5672.306


                              Slide 6
[GRAPHIC] [TIFF OMITTED] T5672.307


                              Slide 7
[GRAPHIC] [TIFF OMITTED] T5672.160

[GRAPHIC] [TIFF OMITTED] T5672.161

[GRAPHIC] [TIFF OMITTED] T5672.162

[GRAPHIC] [TIFF OMITTED] T5672.163

[GRAPHIC] [TIFF OMITTED] T5672.164

[GRAPHIC] [TIFF OMITTED] T5672.165

[GRAPHIC] [TIFF OMITTED] T5672.166

[GRAPHIC] [TIFF OMITTED] T5672.167

[GRAPHIC] [TIFF OMITTED] T5672.168

[GRAPHIC] [TIFF OMITTED] T5672.169

[GRAPHIC] [TIFF OMITTED] T5672.170

[GRAPHIC] [TIFF OMITTED] T5672.171

[GRAPHIC] [TIFF OMITTED] T5672.172

[GRAPHIC] [TIFF OMITTED] T5672.173

[GRAPHIC] [TIFF OMITTED] T5672.174

[GRAPHIC] [TIFF OMITTED] T5672.175

[GRAPHIC] [TIFF OMITTED] T5672.176

[GRAPHIC] [TIFF OMITTED] T5672.177

[GRAPHIC] [TIFF OMITTED] T5672.178

[GRAPHIC] [TIFF OMITTED] T5672.179

[GRAPHIC] [TIFF OMITTED] T5672.180

[GRAPHIC] [TIFF OMITTED] T5672.181

[GRAPHIC] [TIFF OMITTED] T5672.182

[GRAPHIC] [TIFF OMITTED] T5672.183

[GRAPHIC] [TIFF OMITTED] T5672.184

[GRAPHIC] [TIFF OMITTED] T5672.185

[GRAPHIC] [TIFF OMITTED] T5672.186

[GRAPHIC] [TIFF OMITTED] T5672.187

[GRAPHIC] [TIFF OMITTED] T5672.188

[GRAPHIC] [TIFF OMITTED] T5672.189

[GRAPHIC] [TIFF OMITTED] T5672.190

[GRAPHIC] [TIFF OMITTED] T5672.191

[GRAPHIC] [TIFF OMITTED] T5672.195

[GRAPHIC] [TIFF OMITTED] T5672.196

[GRAPHIC] [TIFF OMITTED] T5672.197

[GRAPHIC] [TIFF OMITTED] T5672.198

[GRAPHIC] [TIFF OMITTED] T5672.199

[GRAPHIC] [TIFF OMITTED] T5672.200

[GRAPHIC] [TIFF OMITTED] T5672.201

[GRAPHIC] [TIFF OMITTED] T5672.202

[GRAPHIC] [TIFF OMITTED] T5672.203

[GRAPHIC] [TIFF OMITTED] T5672.204

[GRAPHIC] [TIFF OMITTED] T5672.205

[GRAPHIC] [TIFF OMITTED] T5672.206

[GRAPHIC] [TIFF OMITTED] T5672.207

[GRAPHIC] [TIFF OMITTED] T5672.208

[GRAPHIC] [TIFF OMITTED] T5672.209

[GRAPHIC] [TIFF OMITTED] T5672.210

[GRAPHIC] [TIFF OMITTED] T5672.211

[GRAPHIC] [TIFF OMITTED] T5672.212

[GRAPHIC] [TIFF OMITTED] T5672.213

[GRAPHIC] [TIFF OMITTED] T5672.214

[GRAPHIC] [TIFF OMITTED] T5672.215

[GRAPHIC] [TIFF OMITTED] T5672.216

[GRAPHIC] [TIFF OMITTED] T5672.217

[GRAPHIC] [TIFF OMITTED] T5672.218

[GRAPHIC] [TIFF OMITTED] T5672.219

[GRAPHIC] [TIFF OMITTED] T5672.220

[GRAPHIC] [TIFF OMITTED] T5672.221

[GRAPHIC] [TIFF OMITTED] T5672.222

[GRAPHIC] [TIFF OMITTED] T5672.223

[GRAPHIC] [TIFF OMITTED] T5672.224

[GRAPHIC] [TIFF OMITTED] T5672.225

[GRAPHIC] [TIFF OMITTED] T5672.226

[GRAPHIC] [TIFF OMITTED] T5672.227

[GRAPHIC] [TIFF OMITTED] T5672.228

[GRAPHIC] [TIFF OMITTED] T5672.229

[GRAPHIC] [TIFF OMITTED] T5672.230

[GRAPHIC] [TIFF OMITTED] T5672.231

[GRAPHIC] [TIFF OMITTED] T5672.232

[GRAPHIC] [TIFF OMITTED] T5672.233

[GRAPHIC] [TIFF OMITTED] T5672.234

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             August 1, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. What are U.S. obligations under the NPT? I ask this 
because the President has explained his view that there is a bargain, 
for example, his Prague speech: ``The basic bargain is sound: Countries 
with nuclear weapons will move towards disarmament, countries without 
nuclear weapons will not acquire them, and all countries can access 
peaceful nuclear energy.''
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. In a memo from Spurgeon Keeney to incoming National 
Security Advisor to President Nixon, Henry Kissinger, explained that 
the negotiators' view of the treaty suggests that Article VI is ``an 
essentially hortatory statement.''
    Was Mr. Keeney, recently deceased, wrong?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. What's more, the article clearly refers to ``an end to 
the arms race . . . and complete and general disarmament.''
    Isn't the arms race over?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. I don't seem to recall a great and abiding concern each 
time the U.S. builds an aircraft carrier, only a nuclear weapon. Why is 
only part of the article important?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. When the Secretary of State appeared before the Senate 
during the process to obtain ratification of the New START treaty, she 
said the following:
    ``Moreover, by bringing the New START Treaty into force, we will 
strengthen our national security more broadly, including by creating 
greater leverage to tackle a core national security challenge--nuclear 
proliferation. Now, I am not suggesting that this treaty alone will 
convince Iran or North Korea to change their behavior. But it does 
demonstrate our leadership and strengthens our hand as we seek to hold 
these and other governments accountable, whether that means further 
isolating Iran and enforcing the rules against violators . . . A 
ratified new START treaty would also continue our progress toward 
broader U.S.-Russia cooperation. We believe this is critical to other 
foreign policy priorities, including dealing with Iran's nuclear 
program . . .'' (Testimony by Hillary Rodham Clinton, Secretary of 
State. Opening Remarks Before the Senate Committee on Foreign 
Relations, May 18, 2010.)
    Yet, four days after the New START treaty entered into force, the 
Russian Foreign Minister, Sergei Lavrov said at a press conference in 
London that, ``with the approval of Resolution 1929 in [June] last 
year, practical possibilities to impose sanctions on those related--
even indirectly--to the Iranian nuclear program have been exhausted.''
    Again, this was four days after the New START treaty was ratified. 
Was the Secretary of State wrong? Did she over promise? Did Russia care 
about U.S. disarmament in terms of ``strengthening our hand'' and 
continuing ``our progress toward broader U.S.-Russian cooperation . . . 
including dealing with Iran's nuclear program''?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Ambassador Graham stated in his prepared statement 
that, ``the NPT may not be able to survive as a viable regime without 
CTBT entry into force in the reasonably near future.''
    He also stated that ``should Iran acquire a nuclear weapon 
stockpile likely the result would be the widespread proliferation of 
nuclear weapons in the Middle East thereby destroying the NPT.''
    i. Which is likely to happen first, the NPT being destroyed by the 
failure to ratify the CTBT or an Iranian nuclear weapon?
    ii. How do you propose to get Iran and North Korea to ratify the 
CTBT to assure its entry into force?
    iii. Which states are Iran's principal supporters right now? Is it 
true that Russian and China are blocking further U.N. Security Council 
Resolutions? Please explain to me what interest these states have in 
letting Iran go nuclear just because the CTBT hasn't entered into 
force?
    iv. What interest do the non-nuclear weapons states have in taking 
on the expense of building nuclear weapons, and risking the instability 
of further proliferation, just because CTBT hasn't entered into force.
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Can you state your views on the desirability a world of 
nuclear disarmament? Was the last world without nuclear weapons a 
pleasant one? A peaceful one? According to former STRATCOM Commander 
Admiral Rich Mies, the last world without nuclear weapons was an 
incredibly violent one with World Wars that claimed tens of millions of 
lives. With strategic deterrence, the great powers no longer fight each 
other. The Perry-Schlesinger Commission stated that a world without 
nuclear weapons would require a fundamental transformation of the world 
political order. Has that happened yet? Or is the pursuit of nuclear 
abolition really just an example of fighting the symptom and not the 
disease?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Should all sides to the CTBT have the same obligation? 
Should the administration make unequivocally certain there are no side 
deals, no special P5 deals? If there are any, the admin should release 
them? Are you aware of any P5-only agreements incident to the CTBT?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Acting Under Secretary Gottemoeller, while the 
Assistant Secretary of State for Verification, stated in a speech 
titled ``The Long Road from Prague'' that,
    ``The second major arms control objective of the Obama 
Administration is the ratification of the Comprehensive Nuclear Test-
Ban Treaty (CTBT). There is no step that we could take that would more 
effectively restore our moral leadership and improve our ability to 
reenergize the international nonproliferation consensus than to ratify 
the CTBT.''
    When did the United States lose its moral leadership? Why?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Ambassador Graham stated in his testimony that,
    ``And first and foremost of these measures that those signing up to 
make themselves militarily permanently second class wanted as political 
balance for making this commitment was a comprehensive test ban. It is 
the only arms control agreement mentioned in the NPT, and it is of 
central importance to the bargain.''
    If the CTBT was so important, why was it merely a preambular 
reference? Why wasn't it made a legally binding commitment? Do you 
assert it is legally binding on the U.S.?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Ambassador Graham also stated regarding the CTBT that, 
``Well, Egypt of the countries of the world, Egypt and Indonesia were 
probably the two strongest ones to have a Comprehensive Test Ban 
Treaty.'' Please state what actions Egypt and Indonesia will take to 
deal with nuclear terrorism or the Iranian nuclear weapons program if, 
but only if, the U.S. ratifies the CTBT.
    Is there any evidence they will walk away from the NPT if the U.S. 
does not ratify the CTBT?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Traditionally, a President has directed his military 
advisers to determine, chiefly, what level of our nuclear force is 
needed to deter a potential adversary from attacking us or our allies. 
The answer to that question should be what drives the strategy--not a 
President's political ideology.
    For example, here's how Secretary Powell stated President Bush 
looked at the issue:
    ``President Bush gathered his advisers around him and he instructed 
us as follows: Find the lowest number we need to make America safe, to 
make America safe today and to make America safe in the future. Do not 
think of this in cold war terms, don't think in terms of how many more 
weapons do we have to have in order to make the rubble bounce even 
more.'' (Testimony of Secretary of State Colin Powell. Senate Foreign 
Relations Committee hearing on ``Treaty on Strategic Offensive 
Reductions: The Moscow Treaty.'' July 9, 2002.)
    The House Armed Services Committee has been asking questions, 
holding briefings with the administration and even hearings in my 
subcommittee--all without any detailed explanation from the 
administration of what exactly is being discussed in its review.
    All we know about it is from press reports, which indicate that the 
President, in PPD-11 and other instructions, has directed the 
Administration to consider possibly unilateral reductions down to 
levels of 1,000, 700 and 300 deployed warheads.
    What are your views about proceeding to U.S. nuclear force levels 
of 1,000 or lower, before even the New START treaty has been 
implemented?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. How would our allies respond? Would advanced, resource 
and technology capable states continue to feel comfortable relying on 
U.S. guarantees at such low levels? Could such reductions in fact 
stimulate proliferation?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. At what level would China build up to become a peer 
competitor? As a tangent, recently, arms controllers on a State 
Department Advisory Board have urged the United States to publicly 
declare ``mutual vulnerability'' with China. Could you please comment 
on whether you think this is a good idea? Why or why not?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. The New York Times (Mark Landler, ``Obama, on the 
trail, plays for time on foreign policy.'' The New York Times. July 19, 
2012) recently reported that,
    ``The casualties of the calendar include a presidential decision on 
how deeply to cut the stockpile of strategic nuclear warheads, even 
below the levels in the New Start treaty with Russia. The 
administration has all but completed a review of options for Mr. 
Obama's consideration, officials said, but the announcement has been 
delayed for months.''
    Are you aware of an Administration ever playing politics with a 
nuclear targeting review in this manner?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Former Secretary of State Rice stated in December of 
2010,
    ``Nuclear weapons will be with us for a long time. After this 
treaty, our focus must be on stopping dangerous proliferators--not on 
further reductions in the U.S. and Russian strategic arsenals, which 
are really no threat to each other or to international stability.''
    Was she right? Should President Obama follow her advice?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. The Obama Nuclear Posture Review stated that progress 
toward disarmament by the United States will enhance its leadership 
position to deal with threats to its security:
    ``By reducing the role and numbers of U.S. nuclear weapons--meeting 
our NPT Article VI obligation to make progress toward nuclear 
disarmament--we can put ourselves in a much stronger position to 
persuade our NPT partners to join with us in adopting the measures 
needed to reinvigorate the non-proliferation regime and secure nuclear 
materials worldwide.'' (2010 Nuclear Posture Review)
    The question follows, has this policy worked?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. North Korea continues to build nuclear weapons and 
ballistic missiles and the six party process is defunct, with North 
Korea walking away from its most recent deal in record time.
    How has U.S. disarmament action through, for example, the New START 
treaty helped to deal with North Korea?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Iran recently announced that it plans to build a 
nuclear navy and it may enrich nuclear fuel to as high as 90%, even 
talking about nuclear-powered oil tankers. Russia announced four days 
after the New START treaty entered into force that it would block 
further U.N. Security Council Resolutions.
    Who precisely became more willing to help us adopt ``the measures 
needed to reinvigorate the non-proliferation regime'' to deal with 
Iran's nuclear program because of the New START treaty or the NPR's 
emphasis on reducing the roles and numbers of nuclear weapons?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. The 2010 NPR announced the U.S. would not build new 
nuclear weapons. In that same time, Pakistan, India, Russia and China 
have all announced the deployment of new nuclear weapons capabilities.
    What benefit did the U.S. get from the NPR decision constraining 
U.S. nuclear weapons development?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. The U.S. ceased underground nuclear testing in 1992. 
Yet, France, China, India, Pakistan, and North Korea all tested after 
that decision.
    Why didn't they follow our example, our moral leadership, and stop 
testing when we did?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Libya announced it was giving up its weapons of mass 
destruction in 2007 as the Bush Administration was pressing for 
Congress to approve the Reliable Replacement Warhead and the Robust 
Nuclear Earth Penetrator.
    Why didn't Libya choose to hang on to those capabilities in the 
face of U.S. efforts to develop new nuclear capabilities?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Mr. Rademaker, can you briefly relate to the 
Subcommittee what are the Presidential Nuclear Initiatives, the so-
called PNIs?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. While serving as Assistant Secretary of State, you 
stated that:
    ``At the same time President Yeltsin committed to similar 
reductions in Russian tactical nuclear weapons, but considerable 
concern exists that the Russian commitments have not been entirely 
fulfilled. I can assure you that when European audiences talk about the 
problem of tactical nuclear weapons in Europe, their concern is 
directed toward the Russian tactical nuclear weapons and what countries 
they might be targeted on rather than the relatively small number of 
tactical nuclear weapons that remain in the NATO arsenal.'' (Press 
Roundtable at Interfax. Stephen G. Rademaker, Assistant Secretary of 
State for Arms Control. Moscow, Russia. October 6, 2004.)
    Was this a nice way of saying that the Russians were not complying 
with the PNIs?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. As you know, the Congressional Commission on the 
Strategic Posture of the United States, the so-called Perry-Schlesinger 
Commission, stated that,
    ``Russia has not shown the transparency that its neighbors and the 
United States desire on such matters. It has repeatedly rebuffed U.S. 
proposals for NSNF transparency measures and NATO's requests for 
information. And it is no longer in compliance with its PNI 
commitments.''
    Do you agree with that judgment? I ask because, Administration 
statement about the so-called NPR Implementation Study have suggested 
the Administration may try to avoid the cumbersome treaty process, and 
perhaps simply make reductions by political commitment. What are your 
views on that?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. In 2007, the State Department's International Advisory 
Board released a report, ``Discouraging a Cascade of Nuclear Weapons 
States.'' In that report, President Kennedy was quoted expressing a 
concern of his about nuclear proliferation following a classified 
briefing by his Secretary of Defense, Robert McNamara:
    ``I see the possibility in the 1970s of the President of the United 
States having to face a world in which 15 or 20 or 25 nations may have 
these weapons.''
    As we know, thankfully, that didn't come to pass.
    Why?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. In 1968/69, the U.S. reached a high point of about 
30,000 nuclear weapons. At that point there were five nuclear weapons 
states. The U.S. began reducing and the number of nuclear weapons 
states increased. For example, when the U.S. decreased to approximately 
25,000 weapons, India went nuclear. At 10,000 weapons, Pakistan. At 
7,000 weapons, North Korea. We're about to go below 5,000 weapons and 
Iran is about to go nuclear. What lessons should we draw from this 
trend?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. Do you agree China is in violation of Nuclear Suppliers 
Group requirements because of its support for Pakistan's nuclear 
reactor programs, specifically the Chasma 3 and 4 reactors it is 
building for Pakistan?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. What steps should the U.S. take in response?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Turner. What are U.S. obligations under the NPT? I ask this 
because the President has explained his view that there is a bargain, 
for example, his Prague speech: ``The basic bargain is sound: Countries 
with nuclear weapons will move towards disarmament, countries without 
nuclear weapons will not acquire them, and all countries can access 
peaceful nuclear energy.''
    Dr. Schake. U.S. obligations are not to transfer nuclear weapons or 
their technologies to non-nuclear weapons states, and to pursue good-
faith negotiations toward effective disarmament under strict and 
effective international control.
    Mr. Turner. In a memo from Spurgeon Keeney to incoming National 
Security Advisor to President Nixon, Henry Kissinger, explained that 
the negotiators' view of the treaty suggests that Article VI is ``an 
essentially hortatory statement.''
    Was Mr. Keeney, recently deceased, wrong?
    Dr. Schake. My read of the historical record is that the Nixon 
Administration and the Congress would have been unlikely to support the 
treaty if the disarmament commitments applying to the U.S. were 
considered more than hortatory.
    Mr. Turner. What's more, the article clearly refers to ``an end to 
the arms race . . . and complete and general disarmament.'' i. Isn't 
the arms race over?
    Dr. Schake. Our arms race with the Soviet Union is clearly over, as 
the Soviet Union is over. The Russians currently don't seem interested 
in restarting it, but nuclear weapons have become a more important part 
of Russian military power as their conventional forces have collapsed, 
and the Russians seem to be defining their national interests mostly in 
opposition to ours, so it's not out of the question they could again 
seek to assert national power through a build up of their nuclear 
forces. We may also in the coming decade begin to worry about the size 
and characteristics of Chinese nuclear forces. I wouldn't rule out that 
the U.S. could again be faced with a nuclear arms race in which our own 
security depends on preventing nuclear superiority by another country.
    Mr. Turner. I don't seem to recall a great and abiding concern each 
time the U.S. builds an aircraft carrier, only a nuclear weapon. Why is 
only part of the article important?
    Dr. Schake. That's an excellent question, although I wouldn't want 
to encourage arms control advocates to expand their scope to limiting 
our conventional forces. My interpretation of that section of the 
Treaty is to emphasize that only in the context of complete and general 
disarmament ought the U.S. to eliminate its nuclear arsenal.
    Mr. Turner. When the Secretary of State appeared before the Senate 
during the process to obtain ratification of the New START treaty, she 
said the following:
    ``Moreover, by bringing the New START Treaty into force, we will 
strengthen our national security more broadly, including by creating 
greater leverage to tackle a core national security challenge--nuclear 
proliferation. Now, I am not suggesting that this treaty alone will 
convince Iran or North Korea to change their behavior. But it does 
demonstrate our leadership and strengthens our hand as we seek to hold 
these and other governments accountable, whether that means further 
isolating Iran and enforcing the rules against violators . . . A 
ratified new START treaty would also continue our progress toward 
broader U.S.-Russia cooperation. We believe this is critical to other 
foreign policy priorities, including dealing with Iran's nuclear 
program . . .'' (Testimony by Hillary Rodham Clinton, Secretary of 
State. Opening Remarks Before the Senate Committee on Foreign 
Relations, May 18, 2010.)
    Yet, four days after the New START treaty entered into force, the 
Russian Foreign Minister, Sergei Lavrov said at a press conference in 
London that, ``with the approval of Resolution 1929 in [June] last 
year, practical possibilities to impose sanctions on those related--
even indirectly--to the Iranian nuclear program have been exhausted.''
    Again, this was four days after the New START treaty was ratified. 
Was the Secretary of State wrong? Did she over promise? Did Russia care 
about U.S. disarmament in terms of ``strengthening our hand'' and 
continuing ``our progress toward broader U.S.-Russian cooperation . . . 
including dealing with Iran's nuclear program''?
    Dr. Schake. The New START treaty had no effect whatsoever on other 
countries' willingness to hold proliferating governments accountable, 
nor does it appear to have facilitated broader U.S.-Russia cooperation.
    The only one of the Secretary's assertions that has proven true is 
that the treaty did not convince Iran or North Korea to change their 
behavior. I think it's just not true that the current size and 
composition of the U.S. nuclear arsenal has any effect on threshold 
nuclear states.
    The only way in which I could imagine U.S. nuclear force structure 
affecting threshold states is if we reduce our arsenal to such low 
numbers that they consider parity or supremacy within their reach--and 
that would foster proliferation, not restrain it.
    Mr. Turner. Ambassador Graham stated in his prepared statement 
that, ``the NPT may not be able to survive as a viable regime without 
CTBT entry into force in the reasonably near future.''
    He also stated that ``should Iran acquire a nuclear weapon 
stockpile likely the result would be the widespread proliferation of 
nuclear weapons in the Middle East thereby destroying the NPT.''
    i. Which is likely to happen first, the NPT being destroyed by the 
failure to ratify the CTBT or an Iranian nuclear weapon?
    ii. How do you propose to get Iran and North Korea to ratify the 
CTBT to assure its entry into force?
    iii. Which states are Iran's principal supporters right now? Is it 
true that Russian and China are blocking further U.N. Security Council 
Resolutions? Please explain to me what interest these states have in 
letting Iran go nuclear just because the CTBT hasn't entered into 
force?
    iv. What interest do the non-nuclear weapons states have in taking 
on the expense of building nuclear weapons, and risking the instability 
of further proliferation, just because CTBT hasn't entered into force.
    Dr. Schake. I do not believe the CTBT has any bearing on the NPT; I 
do, however, agree with Ambassador Graham that Iran acquiring nuclear 
weapons could very likely set off a cascade of proliferation throughout 
the Middle East that would destroy the NPT.
    Mr. Turner. Can you state your views on the desirability a world of 
nuclear disarmament? Was the last world without nuclear weapons a 
pleasant one? A peaceful one? According to former STRATCOM Commander 
Admiral Rich Mies, the last world without nuclear weapons was an 
incredibly violent one with World Wars that claimed tens of millions of 
lives. With strategic deterrence, the great powers no longer fight each 
other. The Perry-Schlesinger Commission stated that a world without 
nuclear weapons would require a fundamental transformation of the world 
political order. Has that happened yet? Or is the pursuit of nuclear 
abolition really just an example of fighting the symptom and not the 
disease?
    Dr. Schake. Desirable as a world without nuclear weapons might be, 
I don't see how we uninvent them; and if we give ours up, it will only 
strengthen the incentive to acquire them for those countries and 
organizations that mean us harm.
    I agree that nuclear weapons have so far served to inhibit the 
strongest states from fighting each other; but they have not prevented 
wars, and they have not prevented wars even among states with nuclear 
weapons (Pakistan and India, for example). I would also caution that we 
have only a relatively small sample set from which to draw conclusions, 
so I'm uncomfortable making sweeping claims about the deterrent effects 
of nuclear weapons.
    It's a really interesting question whether the weapons are just a 
symptom of the disease; my sense is the political objectives for which 
countries fight are the root cause, not the weapons themselves. The 
answer to your specific question is that we're nowhere near the kind of 
transformation of world political order envisioned by the Perry-
Schlesinger Commission as justifying a disarmed United States.
    Mr. Turner. Should all sides to the CTBT have the same obligation? 
Should the administration make unequivocally certain there are no side 
deals, no special P5 deals? If there are any, the administration should 
release them? Are you aware of any P5-only agreements incident to the 
CTBT?
    Dr. Schake. I wouldn't object in principle to side agreements among 
the P5, but any agreements impinging on or resulting from the Treaty 
must be subject to Congressional review. I am not expert enough on the 
CTBT negotiations to know if any side deals have been entered into
    Mr. Turner. Acting Under Secretary Gottemoeller, while the 
Assistant Secretary of State for Verification, stated in a speech 
titled ``The Long Road from Prague'' that,
    ``The second major arms control objective of the Obama 
Administration is the ratification of the Comprehensive Nuclear Test-
Ban Treaty (CTBT). There is no step that we could take that would more 
effectively restore our moral leadership and improve our ability to 
reenergize the international nonproliferation consensus than to ratify 
the CTBT.''
    When did the United States lose its moral leadership? Why?
    Dr. Schake. I do not agree with Rose Gottemoeller's statement that 
the United States has lost its moral leadership, nor do I believe the 
CTBT is central to that leadership.
    Mr. Turner. Ambassador Graham stated in his testimony that,
    ``And first and foremost of these measures that those signing up to 
make themselves militarily permanently second class wanted as political 
balance for making this commitment was a comprehensive test ban. It is 
the only arms control agreement mentioned in the NPT, and it is of 
central importance to the bargain.''
    If the CTBT was so important, why was it merely a preambular 
reference? Why wasn't it made a legally binding commitment? Do you 
assert it is legally binding on the U.S.?
    Dr. Schake. I disagree with Ambassador Graham's assessment.
    Mr. Turner. Ambassador Graham also stated regarding the CTBT that, 
``Well, Egypt of the countries of the world, Egypt and Indonesia were 
probably the two strongest ones to have a Comprehensive Test Ban 
Treaty.'' Please state what actions Egypt and Indonesia will take to 
deal with nuclear terrorism or the Iranian nuclear weapons program if, 
but only if, the U.S. ratifies the CTBT.
    Is there any evidence they will walk away from the NPT if the U.S. 
does not ratify the CTBT?
    Dr. Schake. I do not see a connection between U.S. ratification of 
the CTBT and adherence by us or other countries to the NPT.
    Mr. Turner. Traditionally, a President has directed his military 
advisers to determine, chiefly, what level of our nuclear force is 
needed to deter a potential adversary from attacking us or our allies. 
The answer to that question should be what drives the strategy--not a 
President's political ideology.
    For example, here's how Secretary Powell stated President Bush 
looked at the issue:
    ``President Bush gathered his advisers around him and he instructed 
us as follows: Find the lowest number we need to make America safe, to 
make America safe today and to make America safe in the future. Do not 
think of this in cold war terms, don't think in terms of how many more 
weapons do we have to have in order to make the rubble bounce even 
more.'' (Testimony of Secretary of State Colin Powell. Senate Foreign 
Relations Committee hearing on ``Treaty on Strategic Offensive 
Reductions: The Moscow Treaty.'' July 9, 2002.)
    The House Armed Services Committee has been asking questions, 
holding briefings with the administration and even hearings in my 
subcommittee--all without any detailed explanation from the 
administration of what exactly is being discussed in its review.
    All we know about it is from press reports, which indicate that the 
President, in PPD-11 and other instructions, has directed the 
Administration to consider possibly unilateral reductions down to 
levels of 1,000, 700 and 300 deployed warheads.
    What are your views about proceeding to U.S. nuclear force levels 
of 1,000 or lower, before even the New START treaty has been 
implemented?
    Dr. Schake. I'm deeply skeptical nuclear forces of that size are an 
adequate deterrent, but I absolutely agree with you that we should have 
a strategy to guide the size and structure of the force, and I have not 
seen strategic guidelines that would justify a force of 1,000 warheads 
or less.
    Mr. Turner. How would our allies respond? Would advanced, resource 
and technology capable states continue to feel comfortable relying on 
U.S. guarantees at such low levels? Could such reductions in fact 
stimulate proliferation?
    Dr. Schake. Many American allies would be concerned that a U.S. 
decision to reduce arsenals that low would be an American disengaging 
from forward defense of allies and protection of the global commons. 
Even allies that purport to want to reduce non-strategic nuclear 
weapons base that on having a strong U.S. strategic nuclear force. So, 
German Foreign Minister Guido Westerwelle, an advocate of removing U.S. 
non-strategic nuclear weapons from Europe, argued it was only possible 
in the context of relying on the U.S. strategic nuclear deterrent.
    What we saw in the debate within NATO about reducing non-strategic 
nuclear forces was a rush by allies to reaffirm three times in the past 
few years their desire for close nuclear cooperation and stationing of 
nuclear forces in Europe.
    Allied concerns would be magnified by an Administration that, as 
the Obama Administration has, been stingy with military assistance and 
political support during military conflicts. Allies want reassurance of 
our commitments from us, and reducing our nuclear arsenal will not be 
reassuring to them. Absent confidence in our extending nuclear 
deterrence, it could well precipitate some countries capable of 
building nuclear forces of their own to do so.
    Mr. Turner. At what level would China build up to become a peer 
competitor? As a tangent, recently, arms controllers on a State 
Department Advisory Board have urged the United States to publicly 
declare ``mutual vulnerability'' with China. Could you please comment 
on whether you think this is a good idea? Why or why not?
    Dr. Schake. China is a long way from having the military capability 
to win a sustained conventional war against the United States. But they 
look to be investing substantially in asymmetric means like cyber that 
have the potential to eliminate dominant U.S. advantages. I believe 
they are building up militarily in order to chip away at U.S. military 
dominance and at U.S. political influence, especially with countries in 
the Asia-Pacific.
    The declaration and preservation of mutual vulnerability is a 
terrible strategic posture, far less stabilizing than a defense-
dominant order. Mutual vulnerability may be a fact of life, but it 
ought not be our objective.
    I also doubt a declaration of mutual vulnerability would benefit 
us. This Chinese government would likely take it to mean the U.S. 
intends to sacrifice any interests we have that conflict with China's, 
and that would only encourage the irredentism China is already inclined 
toward and frighten U.S. allies relying on our willingness to preserve 
the status quo in Asia against assertive Chinese claims.
    Mr. Turner. The New York Times (Mark Landler, ``Obama, on the 
trail, plays for time on foreign policy.'' The New York Times. July 19, 
2012) recently reported that,
    ``The casualties of the calendar include a presidential decision on 
how deeply to cut the stockpile of strategic nuclear warheads, even 
below the levels in the New Start treaty with Russia. The 
administration has all but completed a review of options for Mr. 
Obama's consideration, officials said, but the announcement has been 
delayed for months.''
    Are you aware of an Administration ever playing politics with a 
nuclear targeting review in this manner?
    Dr. Schake. It is not clear to me whether the Administration has 
been withholding the conclusions or has genuinely been unable to 
complete the ``90 day review''.
    Mr. Turner. Former Secretary of State Rice stated in December of 
2010,
    ``Nuclear weapons will be with us for a long time. After this 
treaty, our focus must be on stopping dangerous proliferators--not on 
further reductions in the U.S. and Russian strategic arsenals, which 
are really no threat to each other or to international stability.''
    Was she right? Should President Obama follow her advice?
    Dr. Schake. I agree with Secretary Rice that our priority in arms 
control should be on reversing progress in the most dangerous 
proliferating states. We should be more concerned presently with Iran 
and North Korea than we are with Russia.
    But I am, perhaps, more concerned than she is (or was) about 
Russia's reversion to authoritarianism and I would favor a treaty 
limiting non-strategic nuclear forces because of the way Russia has 
tried to intimidate European countries with suggestions of their use. 
Since the end of the Cold War, the NATO alliance has unilaterally 
reduced its non-strategic nuclear forces by 90% and it precipitated no 
change at all in Russian non-strategic holdings; bringing Russian NSNF 
under treaty limits would be beneficial.
    Mr. Turner. The Obama Nuclear Posture Review stated that progress 
toward disarmament by the United States will enhance its leadership 
position to deal with threats to its security:
    ``By reducing the role and numbers of U.S. nuclear weapons--meeting 
our NPT Article VI obligation to make progress toward nuclear 
disarmament--we can put ourselves in a much stronger position to 
persuade our NPT partners to join with us in adopting the measures 
needed to reinvigorate the non-proliferation regime and secure nuclear 
materials worldwide.'' (2010 Nuclear Posture Review)
    The question follows, has this policy worked?
    Dr. Schake. No, it has not worked.
    Mr. Turner. North Korea continues to build nuclear weapons and 
ballistic missiles and the six party process is defunct, with North 
Korea walking away from its most recent deal in record time.
    How has U.S. disarmament action through, for example, the New START 
treaty helped to deal with North Korea?
    Dr. Schake. It has not helped.
    Mr. Turner. Iran recently announced that it plans to build a 
nuclear navy and it may enrich nuclear fuel to as high as 90%, even 
talking about nuclear-powered oil tankers. Russia announced four days 
after the New START treaty entered into force that it would block 
further U.N. Security Council Resolutions.
    Who precisely became more willing to help us adopt ``the measures 
needed to reinvigorate the non-proliferation regime'' to deal with 
Iran's nuclear program because of the New START treaty or the NPR's 
emphasis on reducing the roles and numbers of nuclear weapons?
    Dr. Schake. I see no evidence the New START Treaty or reducing the 
roles and numbers of U.S. nuclear weapons has had any effect on Iran's 
nuclear program or other countries' willingness to assist in containing 
and reversing the Iranian nuclear programs.
    Mr. Turner. The 2010 NPR announced the U.S. would not build new 
nuclear weapons. In that same time, Pakistan, India, Russia and China 
have all announced the deployment of new nuclear weapons capabilities.
    What benefit did the U.S. get from the NPR decision constraining 
U.S. nuclear weapons development?
    Dr. Schake. I see no evidence the constraints on U.S. nuclear 
weapons development have had any affect on other countries' decisions 
about nuclear weapons.
    Mr. Turner. The U.S. ceased underground nuclear testing in 1992. 
Yet, France, China, India, Pakistan, and North Korea all tested after 
that decision.
    Why didn't they follow our example, our moral leadership, and stop 
testing when we did?
    Dr. Schake. I believe the countries named considered the robustness 
of their nuclear arsenals or the political significance of conducting 
tests to be much more important than any action taken by the United 
States.
    Mr. Turner. Libya announced it was giving up its weapons of mass 
destruction in 2007 as the Bush Administration was pressing for 
Congress to approve the Reliable Replacement Warhead and the Robust 
Nuclear Earth Penetrator.
    Why didn't Libya choose to hang on to those capabilities in the 
face of U.S. efforts to develop new nuclear capabilities?
    Dr. Schake. I see no evidence of a robust connection between the 
numbers or types of warheads in the U.S. nuclear arsenal and the 
decisions of other countries about their nuclear programs. In the case 
of Libya, their renunciation of WMD programs was motivated by a desire 
to change their relationship with the United States, foster greater 
economic openness, and concern that we had overthrown another dictator 
we believed working assiduously to develop such weapons.
    Mr. Turner. Dr. Schake, please describe Russian and European 
reactions to the over 90% reductions to U.S. forward-deployed nuclear 
weapons in Europe.
    Dr. Schake. Russia's long-standing position has been that both the 
United States and Russia should remove all nuclear weapons from Europe 
(they do not acknowledge a NATO role in assessing threats, conducting 
planning, and participating in nuclear missions). Yet the dramatic 
reduction in NATO's nuclear arsenal did not precipitate any reductions 
in the numbers or deployment patterns of Russian nuclear forces. None.
    European reaction to the 90% reductions has been both positive and 
deeply appreciative. Our allies were appreciative President Bush's 
leadership in considering reductions, grateful to be included in a NATO 
process of analyzing alliance threats and determining a nuclear and 
conventional force posture that deters potential aggressors and assures 
allies of our continuing common purpose and common defense. Our country 
continues to benefit from the solid alliance management that produced 
the NSNF reductions, as demonstrated by NATO allies three times in the 
past few years reaffirming the continuation of those decisions.
    Our European allies keep reaffirming the status quo: they believe 
we have made the right strategic decisions about alliance nuclear 
forces and their role in our defense, and they want to maintain them. 
We will have difficult decisions to make about modernization of 
nuclear-capable delivery systems in a time of great budget austerity on 
both sides of the Atlantic, but allies have agreed that NATO needs to 
have nuclear forces deployed in Europe, and that wide participation in 
nuclear missions is important to the deterrent.
    Mr. Turner. In 2007, the State Department's International Advisory 
Board released a report, ``Discouraging a Cascade of Nuclear Weapons 
States.'' In that report, President Kennedy was quoted expressing a 
concern of his about nuclear proliferation following a classified 
briefing by his Secretary of Defense, Robert McNamara:
    ``I see the possibility in the 1970s of the President of the United 
States having to face a world in which 15 or 20 or 25 nations may have 
these weapons.''
    As we know, thankfully, that didn't come to pass.
    Why?
    Dr. Schake. I think there are lots of reasons. The Kennedy 
Administration was perhaps projecting its fears, given that it had 
weathered nuclear crises with the Soviet Union over Berlin and Cuba. 
The Kennedy Administration wasn't actually very good at assessing other 
countries' motivations, either. And predicting the future tends very 
often to rely too heavily on extrapolating near term trends. It's 
entirely possible they overestimated the number of countries that 
wanted nuclear weapons, or those that had the indigenous scientific and 
engineering capacity to produce them, or those that perceived marginal 
advantage from attaining them. I do think the Non-Proliferation Treaty 
has played an important role in fostering a norm against proliferation, 
and that has changed the trajectory. Control of nuclear materials 
through the Suppliers Group has been hugely important in preventing 
countries that want the inputs from attaining them. I also think 
countries that acquired nuclear weapons found they didn't perhaps solve 
as many problems as they might have wished. But perhaps the most useful 
constraint on proliferation has been U.S. security guarantees. Most of 
the countries that have the scientific and economic resources to have 
crossed the nuclear threshold are American allies: Germany, Japan, 
South Korea. Our willingness to extend the deterrence of our 
conventional and nuclear arsenals to their defense has prevented them 
choosing to build arsenals of their own. And lastly, we should not 
underestimate the importance of diplomacy. The U.S. and its allies have 
put an enormous amount of effort into identifying countries approaching 
the nuclear threshold and affecting their decisions. That has had a 
very important effect in raising the costs to potential proliferators.
    Mr. Turner. In 1968/69, the U.S. reached a high point of about 
30,000 nuclear weapons. At that point there were five nuclear weapons 
states. The U.S. began reducing and the number of nuclear weapons 
states increased. For example, when the U.S. decreased to approximately 
25,000 weapons, India went nuclear. At 10,000 weapons, Pakistan. At 
7,000 weapons, North Korea. We're about to go below 5,000 weapons and 
Iran is about to go nuclear. What lessons should we draw from this 
trend?
    Dr. Schake. I don't believe there is a robust correlation between 
the size and structure of U.S. nuclear forces and proliferation. I 
don't see evidence that either Pakistan or North Korea believed the 
reductions in our arsenal were relevant to their decisions to cross the 
nuclear threshold.
    The only instances in which I am concerned other countries may see 
a connection are:
    <bullet>  if the U.S. arsenal is reduced to such a low level that a 
country, or a collection of countries, saw the ability to destroy our 
nuclear force; or
    <bullet>  countries or organizations believed there was political 
value in surpassing the numbers of U.S. forces.
    It may seem counterintuitive, but it is quite possible that further 
reductions in U.S. nuclear forces could precipitate proliferation 
rather than prevent it.
    Mr. Turner. Do you agree China is in violation of Nuclear Suppliers 
Group requirements because of its support for Pakistan's nuclear 
reactor programs, specifically the Chasma 3 and 4 reactors it is 
building for Pakistan?
    Dr. Schake. I do not consider myself knowledgeable enough to make a 
judgment on that.
    Mr. Turner. What steps should the U.S. take in response?
    Dr. Schake. I do not consider myself knowledgeable enough to make a 
judgment on that.
    Mr. Turner. What are U.S. obligations under the NPT? I ask this 
because the President has explained his view that there is a bargain, 
for example, his Prague speech: ``The basic bargain is sound: Countries 
with nuclear weapons will move towards disarmament, countries without 
nuclear weapons will not acquire them, and all countries can access 
peaceful nuclear energy.''
    Ambassador Graham. The NPT Basic Bargain is that most of the world, 
now more than 180 countries, agreed not to acquire nuclear weapons. In 
exchange for this the five nuclear weapon states recognized by the NPT 
(the United States, the United Kingdom, the Soviet Union/Russia, France 
and China) agreed to share the technology for the peaceful use of 
nuclear energy (Article IV of the Treaty) and to pursue negotiations in 
good faith on ending the arms race (long since ended) and nuclear 
disarmament (Article VI of the Treaty). The United States NPT 
obligations with respect to the Basic Bargain are the provisions 
contained in Articles IV and VI. Article IV is straightforward; Article 
VI on its face is a commitment to engage in good faith nuclear 
disarmament negotiations. But the negotiating record makes clear that 
it was the intent of this Article to ultimately achieve the end point 
of the negotiations--the complete elimination of nuclear weapons 
worldwide. However, it was recognized by the nonnuclear weapon states 
that this would take a long time and in the meantime the nuclear weapon 
states were expect to achieve interim measures, such as the 
comprehensive test ban treaty, referred to paragraph 10 of the preamble 
to the NPT.
    Mr. Turner. In a memo from Spurgeon Keeney to incoming National 
Security Advisor to President Nixon, Henry Kissinger, explained that 
the negotiators' view of the treaty suggests that Article VI is ``an 
essentially hortatory statement.''
    Was Mr. Keeney, recently deceased, wrong?
    Ambassador Graham. Article VI was a hortatory statement in the 
sense it did not call for a specific result at a specific time. It 
obligates the U.S. to ``good faith'' negotiations on nuclear 
disarmament. But as the World Court has said ``good faith'' does imply 
a result at some point.
    Mr. Turner. What's more, the article clearly refers to ``an end to 
the arms race . . . and complete and general disarmament.''
    Isn't the arms race over?
    Ambassador Graham. Yes, the arms race is over. But of course 
nuclear disarmament has not been achieved. And in the Final Document of 
the 2000 NPT Review Conference all NPT parties, including the United 
States, agreed to ``An unequivocal undertaking by the nuclear-weapon 
States to accomplish the total elimination of their nuclear arsenals 
leading to nuclear disarmament to which all states parties are 
committed under Article VI'' States understood that eliminating nuclear 
weapons would take a long time but that the nuclear weapons states 
should take interim steps sooner, such as a comprehensive test ban. The 
objective of achieving a test ban is set forth in an NPT preambular 
clause. And when the NPT was indefinitely extended in 1995 the nuclear 
weapons states, including the United States, in the accompanying 
Document, ``Principles and Objectives for Nuclear Non-Proliferation and 
Disarmament'', pledged themselves to a series of interim steps 
including the test ban again and a fissile material cut off treaty.
    Mr. Turner. I don't seem to recall a great and abiding concern each 
time the U.S. builds an aircraft carrier, only a nuclear weapon. Why is 
only part of the article important?
    Ambassador Graham. The NPT Article VI commitment to ``general and 
complete disarmament'' was interpreted to be separate from that to 
``nuclear disarmament'', in the Final Document of 2010 NPT Review 
Conference by the consent of all NPT parties.
    Mr. Turner. When the Secretary of State appeared before the Senate 
during the process to obtain ratification of the New START treaty, she 
said the following:
    ``Moreover, by bringing the New START Treaty into force, we will 
strengthen our national security more broadly, including by creating 
greater leverage to tackle a core national security challenge--nuclear 
proliferation. Now, I am not suggesting that this treaty alone will 
convince Iran or North Korea to change their behavior. But it does 
demonstrate our leadership and strengthens our hand as we seek to hold 
these and other governments accountable, whether that means further 
isolating Iran and enforcing the rules against violators . . . A 
ratified new START treaty would also continue our progress toward 
broader U.S.-Russia cooperation. We believe this is critical to other 
foreign policy priorities, including dealing with Iran's nuclear 
program . . .'' (Testimony by Hillary Rodham Clinton, Secretary of 
State. Opening Remarks Before the Senate Committee on Foreign 
Relations, May 18, 2010.)
    Yet, four days after the New START treaty entered into force, the 
Russian Foreign Minister, Sergei Lavrov said at a press conference in 
London that, ``with the approval of Resolution 1929 in [June] last 
year, practical possibilities to impose sanctions on those related--
even indirectly--to the Iranian nuclear program have been exhausted.''
    Again, this was four days after the New START treaty was ratified. 
Was the Secretary of State wrong? Did she over promise? Did Russia care 
about U.S. disarmament in terms of ``strengthening our hand'' and 
continuing ``our progress toward broader U.S.-Russian cooperation . . . 
including dealing with Iran's nuclear program''?
    Ambassador Graham. The Secretary of State was not wrong. 
Ratification of New START will help progress to continue toward broader 
U.S.-Russian cooperation. But it won't solve everything at once. Iran 
is very difficult for Russia; Iran has never aided the Islamic rebels 
in Chechnya and helped Russia overcome the violence in Tajikistan. But 
slowly it will improve.
    Mr. Turner. During a recent event with the Obama Administration's 
Acting Under Secretary for Arms Control, you told a gathering of the 
American Bar Association that CTBT ratification was an essential step 
toward eventual nuclear disarmament. (Zach Toombs, ``U.S. Arms Control 
Official: Test Ban Treaty Faces `Uphill' Fight In Senate.'' The Center 
for Public Integrity. July 23, 2012.)
    Do you stand by that statement? Is the CTBT a key step towards 
eventual nuclear disarmament?
    Ambassador Graham. I stand by that statement because I do not think 
that the NPT can remain viable for the long term without CTBT entry 
into force. It is an essential part of the Basic Bargain. Nuclear 
disarmament in the long run will not be possible if the NPT falls 
apart.
    Mr. Turner. Ambassador Graham, perhaps you could help me with 
something. You state in your prepared statement that, ``the NPT may not 
be able to survive as a viable regime without CTBT entry into force in 
the reasonably near future.''
    You also state that ``should Iran acquire a nuclear weapon 
stockpile likely the result would be the widespread proliferation of 
nuclear weapons in the Middle East thereby destroying the NPT.''
    Which is likely to happen first, the NPT being destroyed by the 
failure to ratify the CTBT or an Iranian nuclear weapon?
    Ambassador Graham. That is a difficult question to answer. But if I 
must choose I would say an Iranian nuclear weapon--if Iran decides to 
build one--could happen first.
    Mr. Turner. How do you propose to get Iran and North Korea to 
ratify the CTBT to assure its entry into force?
    Ambassador Graham. That of course will be difficult. With respect 
to Iran, if it is only Iran and North Korea that are left to ratify 
before the CTBT would come into force and Iran does not ratify that 
would unequivocally expose their program as a weapons program. So that 
concern might be persuasive to them. North Korea will probably require 
bribery or threats of some sort.
    Mr. Turner. Which states are Iran's principal supporters right now? 
Is it true that Russian and China are blocking further U.N. Security 
Council Resolutions? Please explain to me what interest these states 
have in letting Iran go nuclear just because the CTBT hasn't entered 
into force?
    Ambassador Graham. Iran and China are Iran's principal supporters, 
but it has nothing to do with the CTBT. China wants Iran's oil. With 
Russia it is more complicated. Iran has never aided the Chechen rebels, 
but if they did given their proximity to Chechnya, the Russian position 
there might become untenable. Iran also aided Russia in controlling 
violence in Tajikistan. Iran is in addition a large Russian trading 
partner.
    Mr. Turner. What interest do the non-nuclear weapons states have in 
taking on the expense of building nuclear weapons, and risking the 
instability of further proliferation, just because CTBT hasn't entered 
into force?
    Ambassador Graham. It's more a question of national pride than 
anything. The nonnuclear weapon states gave up forever the world's most 
powerful weapon. As things presently work in the world community that 
makes them a second class state. The great powers are the five NPT 
nuclear weapon states, (the U.S., the U.K., Russia, France and China), 
the P-5. The non-nuclear weapon states want political cover for 
agreeing to accept second class status. That cover is the Basic 
Bargain, particularly the CTBT. If it is never delivered some of them 
will think about no longer remaining a second class state, and become a 
state whose views countries listen to by acquiring nuclear weapons.
    Mr. Turner. Lastly, Ambassador Graham, your prepared statement 
includes the following line, which I found curious: ``the Clinton 
Administration did try by offering major trade concessions but 
apparently it was too little, too late.'' Is it really your position 
that we didn't offer enough to Iran to entice it to give up its illegal 
nuclear weapons program?
    Ambassador Graham. When President Clinton did that, the reform 
leader in Iran Mohamed Khatami had been in power three years; the 
conservatives had had time to undermine him. If the offer had been made 
by the Clinton administration in 1997 when he was just elected and was 
reaching out to the West, rather than 2000, he might have been 
sufficiently strengthened to go for real reform.
    Mr. Turner. Should all sides to the CTBT have the same obligation? 
Should the administration make unequivocally certain there are no side 
deals, no special P5 deals? If there are any, the administration should 
release them? Are you aware of any P5-only agreements incident to the 
CTBT?
    Ambassador Graham. Yes all sides to the CTBT should have the same 
obligation. The administration should be sure that there are no side 
deals, or special P-5 deals, this is a zero yield treaty and it applies 
to everyone. I am not aware of any P-5 only agreement related to the 
CTBT.
    Mr. Turner. Acting Under Secretary Gottemoeller, while the 
Assistant Secretary of State for Verification, stated in a speech 
titled ``The Long Road from Prague'' that,
    ``The second major arms control objective of the Obama 
Administration is the ratification of the Comprehensive Nuclear Test-
Ban Treaty (CTBT). There is no step that we could take that would more 
effectively restore our moral leadership and improve our ability to 
reenergize the international nonproliferation consensus than to ratify 
the CTBT.''
    When did the United States lose its moral leadership? Why?
    Ambassador Graham. The United States was seen by many NPT parties 
at the time of the 2005 NPT Review Conference as disavowing important 
previous commitments that it had made to all NPT parties.
    Mr. Turner. Ambassador Graham, you stated in your testimony that,
    ``And first and foremost of these measures that those signing up to 
make themselves militarily permanently second class wanted as political 
balance for making this commitment was a comprehensive test ban. It is 
the only arms control agreement mentioned in the NPT, and it is of 
central importance to the bargain.''
    If the CTBT was so important, why was it merely a preambular 
reference? Why wasn't it made a legally binding commitment? Do you 
assert it is legally binding on the U.S.?
    Ambassador Graham. A preambular reference was the best that the 
non-nuclear weapon states could get at the time, 1968. In 1968 near the 
close of the negotiations the U.S. and the Soviet Union promised the 
nonnuclear states that a comprehensive test ban treaty would be worked 
out in the Review Conferences. That never happened indeed was never 
attempted until the 1995 timeframe. A preambular clause is not legally 
binding on anyone.
    Mr. Turner. Ambassador Graham, you also stated regarding the CTBT 
that, ``Well, Egypt of the countries of the world, Egypt and Indonesia 
were probably the two strongest ones to have a Comprehensive Test Ban 
Treaty.'' Please state what actions Egypt and Indonesia will take to 
deal with nuclear terrorism or the Iranian nuclear weapons program if, 
but only if, the U.S. ratifies the CTBT.
    Ambassador Graham. In 1995 at the time of NPT extension Egypt and 
Indonesia were the two states most active in arguing for a 
comprehensive test ban treaty. But many, many others wanted it. This 
issue had to do with the NPT and the nuclear arms control structure and 
nothing to do with terrorism or Iran. Should the U.S. ratify CTBT that 
doesn't mean those two states would do anything specific about 
terrorism or Iran. Indonesia isn't even much of a player in the Iran 
debate.
    Mr. Turner. Is there any evidence they will walk away from the NPT 
if the U.S. does not ratify the CTBT?
    Ambassador Graham. Egypt and Indonesia have not said that they 
would walk away from the NPT if the CTBT is not ratified. Egypt 
possibly might acquire nuclear weapons if Iran does. The CTBT relates 
to the long term viability of the NPT, whether it is a balanced treaty 
or not which can stand the test of time.
    Mr. Turner. Traditionally, a President has directed his military 
advisers to determine, chiefly, what level of our nuclear force is 
needed to deter a potential adversary from attacking us or our allies. 
The answer to that question should be what drives the strategy--not a 
President's political ideology.
    For example, here's how Secretary Powell stated President Bush 
looked at the issue:
    ``President Bush gathered his advisers around him and he instructed 
us as follows: Find the lowest number we need to make America safe, to 
make America safe today and to make America safe in the future. Do not 
think of this in cold war terms, don't think in terms of how many more 
weapons do we have to have in order to make the rubble bounce even 
more.'' (Testimony of Secretary of State Colin Powell. Senate Foreign 
Relations Committee hearing on ``Treaty on Strategic Offensive 
Reductions: The Moscow Treaty.'' July 9, 2002.)
    The House Armed Services Committee has been asking questions, 
holding briefings with the administration and even hearings in my 
subcommittee--all without any detailed explanation from the 
administration of what exactly is being discussed in its review.
    All we know about it is from press reports, which indicate that the 
President, in PPD-11 and other instructions, has directed the 
Administration to consider possibly unilateral reductions down to 
levels of 1,000, 700 and 300 deployed warheads.
    What are your views about proceeding to U.S. nuclear force levels 
of 1,000 or lower, before even the New START treaty has been 
implemented?
    Ambassador Graham. I think that it should be a Pentagon decision 
based on their best judgment of what size force is desirable. And I 
also do not think that it should be a unilateral decision, we should 
negotiate with the Russians to the levels we want. It seems to me an 
agreement with Russia to jointly reduce to 1000 weapons would be a good 
follow on to New START. Some believe that this is the level required to 
persuade the other nuclear weapon states to be involved in the process 
and negotiate reductions of their stockpiles.
    Mr. Turner. How would our allies respond? Would advanced, resource 
and technology capable states continue to feel comfortable relying on 
U.S. guarantees at such low levels? Could such reductions in fact 
stimulate proliferation?
    Ambassador Graham. I don't favor unilateral reductions. If they are 
negotiated levels our allies as well as other states would be very 
positive about such an effort.
    Mr. Turner. At what level would China build up to become a peer 
competitor? As a tangent, recently, arms controllers on a State 
Department Advisory Board have urged the United States to publicly 
declare ``mutual vulnerability'' with China. Could you please comment 
on whether you think this is a good idea? Why or why not?
    Ambassador Graham. I think it is most unlikely China would wish to 
build up to become a peer competitor. China is not our friend; they 
will compete with us but not with nuclear weapons. Cultural, economic 
and technological weapons (cyber) are their preferences. I do not 
support the idea of declaring ``mutual vulnerability'' with China.
    Mr. Turner. The New York Times (Mark Landler, ``Obama, on the 
trail, plays for time on foreign policy.'' The New York Times. July 19, 
2012) recently reported that,
    ``The casualties of the calendar include a presidential decision on 
how deeply to cut the stockpile of strategic nuclear warheads, even 
below the levels in the New Start treaty with Russia. The 
administration has all but completed a review of options for Mr. 
Obama's consideration, officials said, but the announcement has been 
delayed for months.''
    Are you aware of an Administration ever playing politics with a 
nuclear targeting review in this manner?
    Ambassador Graham. I hate to sound cynical, and I am taking the 
question seriously, but I do not recall an administration that did not 
play politics with issues such as this.
    Mr. Turner. Former Secretary of State Rice stated in December of 
2010,
    ``Nuclear weapons will be with us for a long time. After this 
treaty, our focus must be on stopping dangerous proliferators--not on 
further reductions in the U.S. and Russian strategic arsenals, which 
are really no threat to each other or to international stability.''
    Was she right? Should President Obama follow her advice?
    Ambassador Graham. I do not think that the U.S. and Russia should 
retain large nuclear weapon arsenals which serve no purpose. I do not 
agree with former Secretary of State Rice on this.
    Mr. Turner. The Obama Nuclear Posture Review stated that progress 
toward disarmament by the United States will enhance its leadership 
position to deal with threats to its security:
    ``By reducing the role and numbers of U.S. nuclear weapons--meeting 
our NPT Article VI obligation to make progress toward nuclear 
disarmament--we can put ourselves in a much stronger position to 
persuade our NPT partners to join with us in adopting the measures 
needed to reinvigorate the non-proliferation regime and secure nuclear 
materials worldwide.'' (2010 Nuclear Posture Review)
    The question follows, has this policy worked?
    Ambassador Graham. Little progress has been made toward nuclear 
disarmament, and no decision has been made to reduce the U.S. 
stockpiles below the New START levels, so it is too early to determine 
whether this policy has worked. I strongly favor further reductions but 
not unilateral ones.
    Mr. Turner. North Korea continues to build nuclear weapons and 
ballistic missiles and the six party process is defunct, with North 
Korea walking away from its most recent deal in record time.
    How has U.S. disarmament action through, for example, the New START 
treaty helped to deal with North Korea?
    Ambassador Graham. All of this happened between 2003 and 2009, 
before New START. It took place because the U.S. in the 2001-2003 
timeframe did not pursue an agreement which was possible at the time to 
prevent the expansion of the North Korean arsenal. New START is 
unlikely to have an effect on this fait situation.
    Mr. Turner. Iran recently announced that it plans to build a 
nuclear navy and it may enrich nuclear fuel to as high as 90%, even 
talking about nuclear-powered oil tankers. Russia announced four days 
after the New START treaty entered into force that it would block 
further U.N. Security Council Resolutions.
    Who precisely became more willing to help us adopt ``the measures 
needed to reinvigorate the non-proliferation regime'' to deal with 
Iran's nuclear program because of the New START treaty or the NPR's 
emphasis on reducing the roles and numbers of nuclear weapons?
    Ambassador Graham. The Nuclear Posture Review asserted that meeting 
our NPT Article VI commitments to reduce the role and numbers of 
nuclear weapons will put us in a stronger position, and it has. That 
did not and does not mean that Russia will automatically agree with us 
on sanctions. We now have a better relationship and that was all that 
was meant.
    Mr. Turner. The 2010 NPR announced the U.S. would not build new 
nuclear weapons. In that same time, Pakistan, India, Russia and China 
have all announced the deployment of new nuclear weapons capabilities.
    What benefit did the U.S. get from the NPR decision constraining 
U.S. nuclear weapons development?
    Ambassador Graham. The NPR did not make decisions on U.S. nuclear 
weapon development. It announced a reduction in the role of nuclear 
weapons and supported meeting our NPT commitments. India and Pakistan 
are not NPT members so it did not affect them. Russia in 2010 did agree 
to New START which we wanted, China remains far behind the U.S. in 
numbers.
    Mr. Turner. The U.S. ceased underground nuclear testing in 1992. 
Yet, France, China, India, Pakistan, and North Korea all tested after 
that decision.
    Why didn't they follow our example, our moral leadership, and stop 
testing when we did?
    Ambassador Graham. France and China ceased testing in 1996. India 
and Pakistan tested in 1998 and have announced they will not test again 
so they did follow our moral leadership. North Korea does not follow 
anyone's moral leadership.
    Mr. Turner. Libya announced it was giving up its weapons of mass 
destruction in 2007 as the Bush Administration was pressing for 
Congress to approve the Reliable Replacement Warhead and the Robust 
Nuclear Earth Penetrator.
    Why didn't Libya choose to hang on to those capabilities in the 
face of U.S. efforts to develop new nuclear capabilities?
    Ambassador Graham. Libya announced it was giving up its WMD 
programs, nuclear and chemical in 2003. They made that decision in 
order to rejoin the world community; this was unrelated to anything 
that the U.S. did in its nuclear program.
    Mr. Turner. In 2007, the State Department's International Advisory 
Board released a report, ``Discouraging a Cascade of Nuclear Weapons 
States.'' In that report, President Kennedy was quoted expressing a 
concern of his about nuclear proliferation following a classified 
briefing by his Secretary of Defense, Robert McNamara:
    ``I see the possibility in the 1970s of the President of the United 
States having to face a world in which 15 or 20 or 25 nations may have 
these weapons.''
    As we know, thankfully, that didn't come to pass.
    Why?
    Ambassador Graham. President Kennedy repeated this concern in 
public at a news briefing in March of 1963. It didn't happen because of 
the entry into force of the NPT in 1970 and the associated extended 
deterrence policies of the U.S. and the Soviet Union.
    Mr. Turner. In 1968/69, the U.S. reached a high point of about 
30,000 nuclear weapons. At that point there were five nuclear weapons 
states. The U.S. began reducing and the number of nuclear weapons 
states increased. For example, when the U.S. decreased to approximately 
25,000 weapons, India went nuclear. At 10,000 weapons, Pakistan. At 
7,000 weapons, North Korea. We're about to go below 5,000 weapons and 
Iran is about to go nuclear. What lessons should we draw from this 
trend?
    Ambassador Graham. No lesson should be drawn from this history. The 
United States, as long as nuclear weapons exist, should possess the 
number of nuclear weapons needed to deter the use of a nuclear weapon 
by anyone else. President George W. Bush ordered the number of nuclear 
weapons unilaterally reduced by 50 percent from roughly 10,000 to 5,000 
because he concluded that was all that we needed. He was right to do 
this but it would have been better if it had been done pursuant to a 
treaty with Russia to bring them down as well. In 2010 the U.S. for the 
first time released the actual number of weapons in its nuclear weapon 
stockpile, around 5100. India probably has in the range of 100 to 120 
nuclear weapons, Pakistan perhaps a few more. North Korea is estimated 
to possess 10-12 nuclear weapons and Iran, at present, has zero. Would 
anyone argue that 5100 weapons cannot deter 120 or 10-12? If the 
Department of Defense concludes that a somewhat lower total number than 
5100 serves the interest of the U.S. Government better then we should 
move to that number.
    Mr. Turner. Do you agree China is in violation of Nuclear Suppliers 
Group requirements because of its support for Pakistan's nuclear 
reactor programs, specifically the Chasma 3 and 4 reactors it is 
building for Pakistan?
    Ambassador Graham. If China is transferring sensitive nuclear 
equipment or materials to Pakistan without the approval of the Nuclear 
Suppliers Group then it would be acting in violation of NSG rules. 
However this is a difficult case to make since the U.S. pressured the 
NSG to make such an exception for India just a few years ago.
    Mr. Turner. What steps should the U.S. take in response?
    Ambassador Graham. The U.S. should of course complain but our 
complaints will not persuade many because of our insistence a few years 
ago that an exception for this activity be given to India by the NSG.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. Why does the continued viability of the NPT matter? 
What is the impact of the NPT unraveling?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Ms. Sanchez. Why would non-nuclear weapon states agree to give up 
forever their right to seek the acquisition of nuclear weapons?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Ms. Sanchez. We have no forward-deployed nuclear weapons in 
Northeast Asia and the presence of these weapons in NATO is becoming a 
more controversial issue within the Alliance. Given the cost of 
maintaining these weapons in excess of $10 billion just for the life-
extension program, are there other approaches to extended deterrence 
that would maintain a strong nuclear alliance?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Ms. Sanchez. Where did the current effort to reach the goal of 
global elimination of nuclear weapons come from, did it come from 
President Obama himself or is he following a bi-partisan policy first 
begun by President Ronald Reagan and now continued by former Secretary 
of State George Shultz?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Ms. Sanchez. Why does the continued viability of the NPT matter? 
What is the impact of the NPT unraveling?
    Dr. Schake. I think the NPT matters for two reasons. First, it 
provides the basis for IAEA inspections and U.N. Security Council 
action against violations by signatories to the Treaty. Second, it has 
established an international norm against proliferation by signatories 
that has been valuable.
    The impact of it unraveling would be a much more difficult and 
likely less effective effort to constrain nuclear proliferation.
    Ms. Sanchez. Why would non-nuclear weapon states agree to give up 
forever their right to seek the acquisition of nuclear weapons?
    Dr. Schake. The reasons vary among states, the most common being 
(a) they never had any plans to develop nuclear weapons in the first 
place; (b) confidence in security guarantees from reliable allies--the 
United States has actually been the most important discourager of 
capable countries crossing the threshold by extending our deterrent to 
their protection; and (c) the political and economic costs of 
proceeding against IAEA and U.N. sanction.
    Ms. Sanchez. We have no forward-deployed nuclear weapons in 
Northeast Asia and the presence of these weapons in NATO is becoming a 
more controversial issue within the Alliance. Given the cost of 
maintaining these weapons in excess of $10 billion just for the life-
extension program, are there other approaches to extended deterrence 
that would maintain a strong nuclear alliance?
    Dr. Schake. I respectfully disagree with your statement that the 
presence of nuclear weapons in NATO is becoming more controversial. 
They are substantially less controversial than at almost any time in 
NATO's history--especially compared to anti-nuclear protests in Britain 
during the 1950s or Germany in the 1980s. Three times in the past few 
years NATO allies have reaffirmed the importance of nuclear weapons 
deployed in Europe and the benefits to the alliance of widespread 
participation in nuclear responsibilities.
    There are a variety of ways allies seeking to maintain a strong 
nuclear alliance can do so, but I think the essential element is 
sharing in nuclear responsibilities. Deterrence gets brittle when the 
burden is not shared in ways allies consider equitable.
    One reason forward stationing U.S. weapons in Europe matters so 
much, both to the U.S. and its allies, is that it shows potential 
adversaries that our European allies are willing to shoulder 
responsibilities, risks, and costs along with us. NATO allies have just 
reaffirmed again at the Chicago summit that we want our defense to be 
inseparable--no way for an aggressor to split the U.S. off from Europe. 
Not having the Alliance's nuclear deterrent stationed in Europe might 
tempt an aggressor to believe otherwise, and that would be dangerous 
for us all. So NATO allies recommitted our governments to a defense 
strategy and a nuclear posture that continues the existing force. 
Europeans are also very nervous just now about Russia's slide into 
authoritarianism and the Obama Administration's ``pivot to Asia.'' 
Allied governments want to maintain the status quo in nuclear sharing 
because they're worried aggressors might believe the U.S. no longer 
cares about Europe's security. So now isn't a terrific time for the 
U.S. to make changes.
    Ms. Sanchez. Where did the current effort to reach the goal of 
global elimination of nuclear weapons come from, did it come from 
President Obama himself or is he following a bi-partisan policy first 
begun by President Ronald Reagan and now continued by former Secretary 
of State George Shultz?
    Dr. Schake. As your question suggests, there is considerable 
continuity across presidential administrations aspiring toward a world 
without nuclear weapons; there is, however, also considerable 
continuity in their belief we do not live in that world yet.
    Ms. Sanchez. Why does the continued viability of the NPT matter? 
What is the impact of the NPT unraveling?
    Ambassador Graham. The unraveling of the NPT would almost certainly 
have led eventually to that highly proliferated world which was 
President Kennedy's nightmare, 15-20 or more states with nuclear 
weapons integrated into their national arsenals. Only today, the number 
would be higher. The Director General of the International Atomic 
Energy Agency said in 2004 that over 40 nations now have the capability 
to build nuclear weapons. Proliferation on this scale would mean that 
every conflict would carry with the risk of going nuclear and it would 
be very difficult to keep nuclear weapons out of the hands of terrorist 
organizations they would be so widespread.
    Ms. Sanchez. Why would non-nuclear weapon states agree to give up 
forever their right to seek the acquisition of nuclear weapons?
    Ambassador Graham. NPT non-nuclear weapon states, more than 180 
countries, most of the world, agreed pursuant to a Basic Bargain 
established by the signing of the NPT in 1968 and its indefinite 
extension in 1995, that they would never acquire nuclear weapons, the 
most powerful weapons ever developed. The structure of the Basic 
Bargain is that most of the world agreed never to have nuclear weapons 
in exchange for the commitment of the NPT nuclear weapon states (the 
United States, the United Kingdom, Russia, France and China) to share 
peaceful nuclear technology as well as pursue nuclear disarmament 
negotiations aimed at the ultimate elimination of their nuclear weapon 
arsenals. In the interim, prior to achieving nuclear disarmament in the 
far off future the NPT nuclear weapon states are expected to take 
interim steps including: a comprehensive test ban; deep reductions in 
nuclear weapons; a fissile material cut off treaty; and a legally 
binding commitment not to use, or threaten to use, nuclear weapons 
against NPT non-nuclear weapon states in good standing.
    Ms. Sanchez. We have no forward-deployed nuclear weapons in 
Northeast Asia and the presence of these weapons in NATO is becoming a 
more controversial issue within the Alliance. Given the cost of 
maintaining these weapons in excess of $10 billion just for the life-
extension program, are there other approaches to extended deterrence 
that would maintain a strong nuclear alliance?
    Ambassador Graham. U.S. land based forward-deployed nuclear weapons 
in Europe no longer have a role. They were deployed to offset the 
conventional force imbalance in favor of the Warsaw Pact during the 
Cold War. But it is NATO that now that has superiority.
    However, these weapons should not be withdrawn without the consent 
of NATO and it would be good to withdraw them--should NATO consent--
pursuant to a treaty with Russia withdrawing their tactical nuclear 
weapons from the European region.
    Extended deterrence can be maintained by the presence of U.S. 
nuclear armed ballistic missile submarines off the coast of Europe.
    Ms. Sanchez. Where did the current effort to reach the goal of 
global elimination of nuclear weapons come from, did it come from 
President Obama himself or is he following a bi-partisan policy first 
begun by President Ronald Reagan and now continued by former Secretary 
of State George Shultz?
    Ambassador Graham. The idea for the current effort came from the 
first Wall Street Journal article published in January, 2007 co-
authored by former Secretary of State George Shultz, former Secretary 
of Defense Henry Kissinger, former Secretary of Defense, Bill Perry, 
and former Chairman of the Senate Armed Services Committee, Sam Nunn. 
In that article the four authors note that President Ronald Reagan 
called for the abolishment of ``all nuclear weapons'' which he 
considered to be ``totally irrational, totally inhumane, good for 
nothing but killing, possibly destructive of life on earth and 
civilization.'' And the four authors said in the article that ``. . . 
unless urgent new actions are taken, the U.S. soon will be compelled to 
enter a new nuclear era that will be more precarious, psychologically 
disorienting, and economically even more costly than was Cold War 
deterrence.'' In conclusion the four authors call for the achieving of 
``the goal of a world free of nuclear weapons''. President Obama 
followed this lead at Prague in 2009 and thereafter.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Do you think it would have been better to have New 
START and Russia's cooperation on not selling S-300 missiles to Iran, 
or would we be better off without New START and S-300 surface-to-air 
missiles in Iran?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Langevin. Do we have stronger multilateral sanctions on Iran 
now than we did in 2008? Has the U.S. contribution to the reset with 
Russia contributed to this effort?
    Mr. Rademaker. [The information was not available at the time of 
printing.]
    Mr. Langevin. Do you think it would have been better to have New 
START and Russia's cooperation on not selling S-300 missiles to Iran, 
or would we be better off without New START and S-300 surface-to-air 
missiles in Iran?
    Dr. Schake. I believe Russia would have cancelled the S-300 missile 
sale to Iran whether or not there was a New START Treaty.
    Mr. Langevin. Do we have stronger multilateral sanctions on Iran 
now than we did in 2008? Has the U.S. contribution to the reset with 
Russia contributed to this effort?
    Dr. Schake. We do have stronger multilateral sanctions on Iran, but 
recall they were passed in the U.N. without the support of Turkey or 
Brazil, and achieved only by exempting most of Iran's main oil customer 
(Japan, South Korea, and China). The Russians made clear, just 4 days 
after the U.N. sanctions bill passed, that it was the last round they 
would vote in favor of. Turkey and India are overtly circumventing the 
sanctions, part of why the Iranians may believe they can endure even 
seemingly stronger sanctions.
    The Iranians may also believe Europe's financial crisis will make 
the higher cost of sanctions unsupportable. Europe's enforcement of EU 
sanctions have actually had a greater economic effect, and possibly 
even political effect, than the U.N. sanctions.
    So I think it gives undue credit to the reset policy to suggest it 
made stronger sanctions possible. The credit actually should go more to 
Europe than to anything the U.S. did.
    Mr. Langevin. Do you think it would have been better to have New 
START and Russia's cooperation on not selling S-300 missiles to Iran, 
or would we be better off without New START and S-300 surface-to-air 
missiles in Iran?
    Ambassador Graham. It is of course far better to have New START and 
Russia's cooperation on not selling the effective air defense missile, 
the S-300, to Iran. New START brought Russia's arsenal--larger than 
ours--back under control and restored the START verification system of 
such great value to the U.S. If ever there was a win-win, this is it.
    Mr. Langevin. Do we have stronger multilateral sanctions on Iran 
now than we did in 2008? Has the U.S. contribution to the reset with 
Russia contributed to this effort?
    Ambassador Graham. The fourth round of sanctions on Iran was 
adopted by the United Nations Security Council in 2010; they made the 
grip of sanctions considerably tighter. They likely would not have been 
possible without the U.S. reset policy with Russia.
    Mr. Langevin. What are your recommendations as the United States 
prepares for the 2015 NPT Review conference? What can we expect and 
what can/should the United States bring to the table?
    Ambassador Graham. At the 2010 NPT Review Conference the NPT non-
nuclear weapon states indicated that they would be much stronger in 
their demands for the implementation of the Basic Bargain in 2015. It 
is highly important that the U.S. ratify the CTBT before that date and 
also if at all possible make progress on a fissile material cut off 
treaty as well as a second round of New START negotiations.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
